<html>
<title> - SEXUAL EXPLOITATION OF CHILDREN OVER THE INTERNET: THE FACE OF A CHILD PREDATOR AND OTHER ISSUES HEARING BEFORE THE SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS OF THE COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION SEPTEMBER 26, 2006 Serial No. 109-143 Printed for the use of the Committee on Energy and Commerce Available via the World Wide Web: http://www.access.gpo.gov/congress/house U.S. GOVERNMENT PRINTING OFFICE 31-469 WASHINGTON : 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
              SEXUAL EXPLOITATION OF CHILDREN OVER THE 
             INTERNET: THE FACE OF A CHILD PREDATOR AND 
                           OTHER ISSUES


                              HEARING

                             BEFORE THE

            SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                               OF THE 

                      COMMITTEE ON ENERGY AND 
                              COMMERCE
                      HOUSE OF REPRESENTATIVES


                     ONE HUNDRED NINTH CONGRESS

                            SECOND SESSION


                          SEPTEMBER 26, 2006

                          Serial No. 109-143

       Printed for the use of the Committee on Energy and Commerce







Available via the World Wide Web:  http://www.access.gpo.gov/congress/house


                    U.S. GOVERNMENT PRINTING OFFICE
31-469                      WASHINGTON : 2006
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office 
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 
512-1800 Fax: (202) 512-2250  Mail: Stop  SSOP, Washington, DC 20402-0001



                  COMMITTEE ON ENERGY AND COMMERCE
                     JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas                      JOHN D. DINGELL, Michigan                 
MICHAEL BILIRAKIS, Florida                  Ranking Member
  Vice Chairman                           HENRY A. WAXMAN, California
FRED UPTON, Michigan                      EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                    RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                     EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                      FRANK PALLONE, JR., New Jersey
ED WHITFIELD, Kentucky                    SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia                  BART GORDON, Tennessee
BARBARA CUBIN, Wyoming                    BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois                    ANNA G. ESHOO, California
HEATHER WILSON, New Mexico                BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona                  ELIOT L. ENGEL, New York
CHARLES W. "CHIP" PICKERING,  Mississippi ALBERT R. WYNN, Maryland
  Vice Chairman                           GENE GREEN, Texas
VITO FOSSELLA, New York                   TED STRICKLAND, Ohio
ROY BLUNT, Missouri                       DIANA DEGETTE, Colorado
STEVE BUYER, Indiana                      LOIS CAPPS, California
GEORGE RADANOVICH, California             MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire            TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania             JIM DAVIS, Florida
MARY BONO, California                     JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                       HILDA L. SOLIS, California
LEE TERRY, Nebraska                       CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey                 JAY INSLEE, Washington
MIKE ROGERS, Michigan                     TAMMY BALDWIN, Wisconsin
C.L. "BUTCH" OTTER, Idaho                 MIKE ROSS, Arkansas                       
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee


                        BUD ALBRIGHT, Staff Director
                       DAVID CAVICKE, General Counsel
         REID P. F. STUNTZ, Minority Staff Director and Chief Counsel


               SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS
                     ED WHITFIELD, Kentucky, Chairman
CLIFF STEARNS, Florida                    BART STUPAK, Michigan
CHARLES W. "CHIP" PICKERING,  Mississippi   Ranking Member
CHARLES F. BASS, New Hampshire            DIANA DEGETTE, Colorado
GREG WALDEN, Oregon                       JAN SCHAKOWSKY, Illinois
MIKE FERGUSON, New Jersey                 JAY INSLEE, Washington
MICHAEL C. BURGESS, Texas                 TAMMY BALDWIN, Wisconsin
MARSHA BLACKBURN, Tennessee               HENRY A. WAXMAN, California
JOE BARTON, Texas                         JOHN D. DINGELL, Michigan
  (EX OFFICIO)                              (EX OFFICIO)                            

                                CONTENTS


                                                                      Page
Testimony of:
     Eichenwald, Kurt, Reporter, The New York Times Company	        13
     Hernandez, Dr. Andres, Director, Bureau of Prisons' Sex 
          Offender Treatment Program, Federal Bureau of 
          Prisons, U.S. Department of Justice	                        65
     Salter, Dr. Anna Carol, Psychologist	                        70
     Jenkins, Dr. Philip, Professor, History and Religious 
          Studies, Pennsylvania State University	               112
     Krawawecz, Thomas, Chief Executive Officer, Blue 
          Gravity Communications, Inc.	                               149
     Jones, Christine, General Counsel, GoDaddy.com, Inc.	       153


                SEXUAL EXPLOITATION OF CHILDREN OVER THE 
               INTERNET: THE FACE OF A CHILD PREDATOR AND 
                                OTHER ISSUES


                        TUESDAY, SEPTEMBER 26, 2006

                         HOUSE OF REPRESENTATIVES,
                     COMMITTEE ON ENERGY AND COMMERCE,
               SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS,
                                                           Washington, DC.

        
	The subcommittee met, pursuant to notice, at 10:10 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (Chairman) presiding.
	Members present:  Representatives Whitfield, Walden, 
Ferguson, Burgess, Blackburn, Barton (ex officio), and Stupak.
	Staff present: Mark Paoletta, Chief Counsel for Oversight and 
Investigations; Kelli Andrews, Counsel; Karen Christian, Counsel; 
Ryan Ambrose, Legislative Clerk; David Nelson, Minority 
Investigator/Economist; Jonathan Brater, Minority Staff Assistant; 
and Elizabeth Ertel, Minority Senior Staff Assistant.
	MR. WHITFIELD.  I would like to call this hearing to order this 
morning.  And today the subcommittee is holding its seventh 
hearing on the topic of the Sexual Exploitation of Children over 
the Internet.  During the past 6 months, the subcommittee has 
learned a lot about what industry and law enforcement is doing and 
can do to combat the proliferation of sexually exploited images of 
children over the Internet.  And I must say all of us have been 
appalled at the proliferation of this problem over the Internet.  
Today, we are going to turn to a different topic, and that is 
hopefully learning more about the child predators that seek to harm 
children.
	We are going to hear from a distinguished panel today.  First, 
we have two witnesses that are with us by video conferencing, Dr. 
Philip Jenkins, from Penn State University, and Dr. Anna Salter, a 
clinical psychologist based in Madison, Wisconsin.  I know that 
there has been some technical issues relating to Dr. Salter, but we 
hope that she will be here and we appreciate her sharing with us 
the interview that she conducted with a convicted child sex 
offender.  We saw this video prior to the hearing, and we are 
prepared to ask some questions regarding that video.
	Dr. Jenkins, we look forward to hearing your observations of 
the online pedophile message boards that you were able to 
infiltrate a few years ago and more about your thoughts on this 
dangerous online community.  I also look forward to hearing from 
Dr. Hernandez about the Bureau of Prisons and the only sex 
offender treatment program in the country that they have and to 
discuss the study that you published in 2000 about the offenders 
you were treating that showed a link between possession of child 
pornography and contact offenses with children.
	I also want to thank Mr. Kurt Eichenwald of the New York 
Times.  I would say that with his work in this area he provided us a 
wonderful service not only to this committee, but also to the 
country and his journalism really spurred this subcommittee's 
action on this issue.  I want to thank him also for his work and 
wish him well as he closes out a 20-year career at the New York 
Times next week and begins writing for a new publication, so we 
wish you the very best in your future challenges, Mr. Eichenwald.  
I would say that your work about online child exploitation has 
been illuminating and we look forward to hearing more today 
about your observations of the online pedophile community, as 
well as concerns you have about child modeling sites.  I am also 
interested in hearing about the new information that you provided 
the committee which shows in detail how pedophiles share their 
tips on evading detection from law enforcement.  These are savvy 
criminals that will stop at nothing to insure that they can continue 
to build up their collections of sick sexually exploited images of 
children.
	I would also be interested to hear from our experts today 
whether there is a so-called profile of a child predator, and, if not, 
are there any signs that parents and children should be aware of 
that can give them a clue as to whether or not an individual may be 
a child predator.  On the second panel we will switch focus a bit 
and hear from the leading U.S. domain name registry company 
called GoDaddy, and from a Web hosting company, Blue Gravity 
Communications, about the steps they can take to remove content 
involving he sexual exploitation of children off of their network.
	As I understand it, GoDaddy, in addition to being a domain 
registry company, also provides Web hosting services. It is 
imperative that at every step of this process in setting up websites 
from the domain name registry to signing up with the Web hosting 
company and to finally getting connectivity to the site with an ISP 
that we encourage industry to be as aggressive and innovative as 
possible, and take appropriate steps to investigate and weed out 
sites that sexually exploit children.  I want to thank all the 
witnesses for being here today, and at this time I recognize the 
gentleman from Michigan, Mr. Stupak.
	[The prepared statement of Hon. Ed Whitfield follows:]

PREPARED STATEMENT OF THE HON. ED WHITFIELD, CHAIRMAN, 
SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

	GOOD MORNING.  TODAY THE SUBCOMMITTEE IS 
HOLDING ITS SEVENTH HEARING ON THE TOPIC OF THE 
SEXUAL EXPLOITATION OF CHILDREN OVER THE 
INTERNET.  OVER THE COURSE OF THE PAST SIX 
MONTHS, THE SUBCOMMITTEE HAS LEARNED A LOT 
ABOUT WHAT INDUSTRY AND LAW ENFORCEMENT IS 
DOING AND CAN DO TO COMBAT THE PROLIFERATION 
OF SEXUALLY EXPLOITATIVE IMAGES OF CHILDREN 
OVER THE INTERNET.  
	TODAY, WE TURN TO AN ENTIRELY DIFFERENT 
TOPIC-LEARNING MORE ABOUT THE CHILD 
PREDATORS THAT SEEK TO HARM CHILDREN.  WE ARE 
GOING TO HEAR FROM A VERY DISTINGUISHED PANEL 
TODAY.   FIRST, WE HAVE TWO WITNESSES THAT ARE 
WITH US TODAY VIA VIDEOCONFERENCING-DR. PHILIP 
JENKINS, FROM PENN STATE UNIVERSITY AND DR. 
ANNA SALTER, A CLINICAL PSYCHOLOGIST BASED IN 
MADISON WISCONSIN.  DR. SALTER, WE APPRECIATE 
YOU SHARING WITH US THE INTERVIEW YOU 
CONDUCTED WITH A CONVICTED CHILD SEX OFFENDER 
AND WE ARE PREPARED TO ASK YOU SOME QUESTIONS 
ABOUT THAT.  DR JENKINS, WE LOOK FORWARD TO 
HEARING YOUR OBSERVATIONS OF THE ON-LINE 
PEDOPHILE MESSAGE BOARDS YOU WERE ABLE TO 
INFILTRATE A FEW YEARS AGO AND MORE ABOUT 
YOUR THOUGHTS ON THIS DANGEROUS ON-LINE 
COMMUNITY.  I ALSO LOOK FORWARD TO HEARING 
FROM DR. HERNANDEZ ABOUT THE BUREAU OF 
PRISONS ONLY SEX OFFENDER TREATMENT PROGRAM 
IN THE COUNTRY AND TO DISCUSS THE STUDY HE 
PUBLISHED IN 2000 ABOUT THE OFFENDERS HE WAS 
TREATING WHICH SHOWED A LINK BETWEEN 
POSSESSION OF CHILD PORNOGRAPHY AND CONTACT 
OFFENSES WITH CHILDREN.  
	I WOULD ALSO LIKE TO THANK MR. KURT 
EICHENWALD OF THE NEW YORK TIMES FOR 
TESTIFYING A SECOND TIME AT OUR HEARING ON THIS 
TOPIC.  YOUR WORK ABOUT ON-LINE CHILD 
EXPLOITATION HAS BEEN VERY ILLUMINATING AND 
WE LOOK FORWARD TO HEARING MORE ABOUT YOUR 
OBSERVATIONS OF THE ON-LINE PEDOPHILE 
COMMUNITY, AS WELL AS, CONCERNS YOU HAVE 
ABOUT "CHILD MODELING SITES." I AM ALSO 
INTERESTED IN HEARING ABOUT THE NEW 
INFORMATION THAT MR. EICHENWALD PROVIDED THE 
COMMITTEE, WHICH SHOWS IN DETAIL HOW THESE 
PEDOPHILES SHARE THEIR TIPS ON EVADING 
DETECTION BY LAW ENFORCEMENT.  THESE ARE 
SAVVY CRIMINALS THAT WILL STOP AT NOTHING TO 
ENSURE THAT THEY CAN CONTINUE TO BUILD UP 
THEIR COLLECTIONS OF SICK SEXUALLY 
EXPLOITATIVE IMAGES OF CHILDREN.  I WILL ALSO BE 
INTERESTED TO HEAR FROM OUR EXPERTS TODAY 
WHETHER THERE IS A SO-CALLED 'PROFILE" OF A 
CHILD PREDATOR AND IF NOT, ARE THERE ANY SIGNS 
THAT PARENTS AND CHILDREN SHOULD BE AWARE OF 
THAT CAN CLUE THEM IN TO WHETHER AN INDIVIDUAL 
MAY BE A CHILD PREDATOR. 
	ON THE SECOND PANEL, WE WILL SWITCH FOCUS A 
BIT AND HEAR FROM THE LEADING U.S. DOMAIN NAME 
REGISTRY COMPANY, CALLED,  "GO DADDY" AND 
FROM A WEB HOSTING COMPANY, BLUE GRAVITY 
COMMUNICATIONS, ABOUT THE STEPS THEY CAN TAKE 
TO REMOVE CONTENT INVOLVING THE SEXUAL 
EXPLOITATION OF CHILDREN OFF THEIR NETWORK.  AS 
I UNDERSTAND IT, GO DADDY -IN ADDITION TO BEING 
A DOMAIN REGISTRY COMPANY, ALSO PROVIDES WEB 
HOSTING SERVICES.  IT IS IMPERATIVE THAT AT EVERY 
STEP OF THE PROCESS IN SETTING UP WEBSITES-FROM 
THE DOMAIN NAME REGISTRY TO SIGNING UP WITH A 
WEB HOSTING COMPANY, AND TO FINALLY GETTING 
CONNECTIVITY TO THE SITE WITH AN ISP-- WE 
ENCOURAGE INDUSTRY TO BE AS AGGRESSIVE AS 
POSSIBLE AND TAKE THE APPROPRIATE STEPS TO 
INVESTIGATE AND WEED OUT SITES THAT SEXUALLY 
EXPLOIT CHILDREN. I THANK ALL THE WITNESSES FOR 
BEING HERE TODAY.

	MR. STUPAK.  Thank you, Mr. Chairman.  I would like to thank 
our first panel of expert witnesses for helping us better understand 
child predators and the threat they pose to our children.  Thank 
you, Mr. Eichenwald, for testifying for the committee about your 
ongoing investigation and reporting and good luck in your future 
endeavors.  The subcommittee's investigations and hearings have 
been comprehensive and in depth.  Importantly, these hearings 
have educated the public on the dangers of Internet child predators 
and the hearings have forced change in the industry.
	We have heard from Web search engines, Internet service 
providers, telecommunications companies, cable companies, and 
financial services industry.  Each segment of the industry has been 
held to account and each industry player has stepped forward at 
these hearings to say we can do better.  Today, I look forward to 
the testimony of GoDaddy and Blue Gravity Communications.  
The Web hosting and domain name registration companies can and 
must do better to protect our children and rid their systems of child 
pornography.  Throughout our investigation, I have been impressed 
with the voluntary action that Ernie Allen and the Center for 
Missing and Exploited Children have elicited from large Internet 
companies.
	However, voluntary action by a few of the private sector firms 
involved is insufficient.  For example, we heard last week from the 
largest credit card companies and banks that they are making an 
effort to end the use of their products by child pornographers, but 
we also heard that companies like MasterCard work to eliminate 
child pornography from their systems these criminals just move to 
alternate payment methods like e-gold and other unregulated 
digital currencies.  In the months ahead, it is critical that this 
subcommittee continue to hold all segments of industry 
accountable through oversight and through legislation.
	This committee needs to look to best practices, not only in the 
U.S., but globally as well and enact the legislation that will root 
out these child predators and block them from harming our 
children.  I was proud to offer an amendment to the 
telecommunications bill that will for the first time require Internet 
service providers to take action to block child pornography from 
their networks.  This amendment requires Internet service 
providers to be proactive, not merely reactive.  But there is more 
we can do.  We know from previous testimony that fewer than 300 
of the few thousand Internet service providers are registered with 
the National Center for Missing and Exploited Children.
	Today we will hear from a Web hosting company that 
periodically receives complaints about child pornography on its 
servers but had never implemented any system for searching for 
the source of that content and has only recently begun to report it.  
While Internet service providers are required by law to report child 
pornography to the National Center for Missing and Exploited 
Children Web hosting companies are not.  This is yet another hole 
in the system that must be addressed.
	The committee should build on my amendment to require all 
Internet firms that are search engines, Internet service providers, 
domain registrars, and host websites to actively search for child 
pornography on their system, notify the national committee, and 
then remove any and all content that is identified as child porn 
from their servers.  The United Kingdom was able to reduce the 
identified illegal content hosted on British-based servers from 18 
percent to 4/10th of 1 percent of the worldwide total.  The United 
States has over 40 percent of the commercial child porn websites 
on U.S. servers.
	I understand, however, that as we succeed in greatly reducing 
or eliminating the child pornography commercial sites hosted on 
U.S. servers the criminals are moving their operations abroad.  Our 
response to child pornography and exploitation on the Internet 
must be global.  Again, we can look to the British model.  British 
Telecom has created the software to block any UK ISP from 
connecting with identified child porn sites anywhere in the world.  
Furthermore, British Telecom has made this offer available free of 
charge to any Internet provider.  We are told that all telecom 
companies in Britain that connect customers to the Web will have 
the British Telecom software or similar blocking software in place 
by the end of this year.
	Mr. Chairman, we have learned from these hearings the 
technologies and strategies at work to rid the Internet of child 
pornography and best protect our children.  We have also learned 
there are efforts in the U.S. have been lacking.  It is time to roll up 
our sleeves, put this committee to work.  Mr. Chairman, thank you 
again for holding this hearing.  I yield back the balance of my time.
	MR. WHITFIELD.  Thank you very much, Mr. Stupak, and at 
this time I recognize the Chairman of the Energy and Commerce 
Committee, Mr. Barton, for his opening statement.
	CHAIRMAN BARTON.  Thank you, Mr. Chairman, and Mr. 
Stupak for this continuing series of hearings in child pornography 
and what normal, decent citizens can do about it.  Today we are 
going to hear testimony from a distinguished panel of witnesses 
about the pedophile and child predator community.  This topic 
represents a bit of a shift for the subcommittee.  We spent months 
investigating the response by law enforcement, educators, 
prosecutors, Internet service providers, and financial institutions to 
Internet child pornography.  This hearing is the first time we will 
focus solely on those individuals who actually seek or desire to 
sexually exploit children.
	The witnesses on this panel are experts in what makes 
pedophiles or child predators tick, why they desire children and 
what can be done about it, if anything.  I would like to welcome 
Drs. Hernandez, Jenkins, and Salter to our hearing.  I thank them 
for taking the time to share their expertise with the committee.  I 
also want to thank Mr. Kurt Eichenwald of the New York Times.  
It is a bit of a stretch for me to thank anybody from the New York 
Times, but I do want to thank you, sir.  This is the second time that 
Mr. Eichenwald has testified before our subcommittee.  It was his 
article about Justin Berry published in December of last year that 
brought the issue of Internet child pornography to our attention.  
Mr. Eichenwald has recently published two more articles on the 
subject.  I want to comment you, sir, for what you have done to 
bring this issue to light.  I look forward to your testimony today.
	Our second panel of witnesses continue our subcommittee's 
focus on the role of industry in fighting this scourge.  We are going 
to hear from two companies that are involved in two key steps in 
establishing a website.  One company named GoDaddy.com is the 
largest domain name registration company in the United States.  It 
also hosts or provides Web hosting services.  The second company, 
Blue Gravity Communications, only provides Web hosting.  As I 
understand it, the first step in setting up a website is to register a 
domain site.  The second step is to contract with the Web hosting 
company that would allow the content of the website to reside on 
their servers.
	Typically, Web hosting companies are not able to access or 
change the content that appears on the websites that they host.  
Obviously, any effort to combat the Internet child pornography 
problem must address the role of domain registration and Web 
hosting because without them many child pornography websites 
would not be available to the child predators whose desires are 
fueled by the images that they see.  Ms. Christine Jones of 
GoDaddy.com is the first witness on the second panel.  She is 
going to testify about her company's efforts to investigate and take 
down child pornography websites that have either registered their 
domain names with GoDaddy or are hosted by them.
	I look forward to learning what Ms. Jones believes domain 
registration and Web hosting companies can do to prevent child 
pornography from ever reaching the Internet.  I am also interested 
in learning more about the child modeling website phenomenon 
that GoDaddy is currently witnessing.  The fact that GoDaddy has 
found these websites are often linked to child pornography sites.  
The second witness, Mr. Thomas Krwawecz, owns a Web hosting 
company in New Jersey called Blue Gravity Communications.  Mr. 
Krwawecz is here under subpoena today because our committee's 
investigation revealed that his company perhaps unwittingly has 
hosted so-called child modeling websites.
	These websites display pictures of young girls posed in a 
sexual provocative manner and in sexual clothing.  I can think of 
no good reason for a young child to be posing this way other than 
to appeal to the sexual interests of child predators and pedophiles.  
I understand that Mr. Krwawecz took these sites down.  We would 
like to thank him for doing that upon receiving our subpoena.  I 
look forward to learning more about his Web hosting company and 
how he became involved with these so-called child modeling 
websites.
	Again, I want to thank you, Mr. Whitfield, you, Mr. Stupak, 
and although he is not here, Mr. Dingell, for working together in a 
bipartisan fashion on this hearing.  There is nothing more 
important in our society than protecting our children.  And I want 
to commend this subcommittee for beginning to fight back and do 
just that.  And with that, Mr. Chairman, I yield back.
	[The prepared statement of Hon. Joe Barton follows:]

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, 
COMMITTEE ON ENERGY AND COMMERCE

	Thank you, Chairman Whitfield, for convening this hearing.
	Today, we will hear testimony from a distinguished panel of 
witnesses about the pedophile and child predator community.  This 
topic represents a bit of a shift for our Subcommittee.  While we 
have spent months investigating the response by law enforcement, 
educators, prosecutors, Internet Service Providers, and financial 
institutions to Internet child pornography, this hearing is the first 
time we will focus solely on those individuals who actually seek or 
desire to sexually exploit children.  The witnesses on this panel are 
experts in what makes pedophiles or child predators tick, why they 
desire children, and what can be done about it, if anything.  I 
welcome Doctors Hernandez, Jenkins, and Salter to our hearing, 
and I thank them for taking the time to share their expertise and 
advice with us.
	I would also like to recognize Mr. Kurt Eichenwald of the The 
New York Times.  This is the second time Mr. Eichenwald has 
testified before this Subcommittee.  It was Mr. Eichenwald's 
article about Justin Berry published in December of last year that 
brought the issue of Internet child pornography to our attention.  
Mr. Eichenwald has recently published two more articles on the 
subject.  I commend Mr. Eichenwald for all he has done to bring 
this issue to light, and I look forward to his testimony today.
	Our second panel of witnesses continues our Subcommittee's 
focus on the role of industry in fighting this scourge.  We will hear 
from two companies that are involved in two key steps in 
establishing a website.  One company, GoDaddy.com, is the 
largest domain name registration company in the United States, 
and also provides web hosting services.  The second company, 
Blue Gravity Communications, Inc., only provides web hosting.  
As I understand it, the first step in setting up a website is to register 
a domain name.  The second step is to contract with a web hosting 
company that will allow the content of the website to reside on 
their servers.  Typically, web hosting companies are not able to 
access or change the content that appears on the websites they host.  
Obviously, any effort to combat the Internet child pornography 
problem must address the role of domain registration and web 
hosting, because without them, many commercial child 
pornography websites would not be available to the child predators 
whose desires are fueled by the images they see.
	Ms. Christine Jones of GoDaddy.com is the first witness on our 
second panel.  Ms. Jones will testify about her company's efforts 
to investigate and take down child pornography websites that have 
either registered their domain names with GoDaddy or are hosted 
by them.  I look forward to learning what Ms. Jones  believes 
domain registration and web hosting companies can do to prevent 
child pornography from ever reaching the Internet.  I am also 
interested in learning more about the child modeling website 
phenomenon GoDaddy is currently witnessing, and the fact that 
GoDaddy has found that these websites are often linked to child 
pornography sites.
	The second witness, Mr. Thomas Krwawecz, owns a web-
hosting company in New Jersey called Blue Gravity 
Communications, Inc.  Mr. Krwawecz is here under subpoena 
today because our Committee's investigation revealed that his 
company, perhaps unwittingly, hosted "child modeling" websites.  
These websites displayed pictures of young girls posed in a sexual, 
provocative manner and in sexual clothing.  There is no reason for 
a child to be posed in this way other than to appeal to the sexual 
interests of child predators and pedophiles.  I understand that Mr. 
Krwawecz took these sites down upon receiving our subpoena.  I 
look forward to learning more about his web-hosting company and 
how he came to be involved with these so-called "child modeling" 
websites.  
	Thank you again, Chairman Whitfield, for convening this 
important hearing.  I yield back the balance of my time.

	MR. WHITFIELD.  Thank you, Mr. Chairman.  At this time, I 
recognize the gentleman from New Jersey for his opening 
statement, Mr. Ferguson.
	MR. FERGUSON.  Thank you, Mr. Chairman, and thank you, 
Mr. Stupak, for this continuing series of hearings on this topic 
which has become very important to all of us the more we have 
learned about it over the last several months.  I want to thank our 
witnesses for coming before the committee to testify today.  I 
particularly want to thank Kurt Eichenwald, who has spent a lot of 
time bringing this sordid world to light.  Kurt, thanks for your 
work on this important topic and again for coming to Washington 
to share your expertise with us.  I also thank the rest of our 
witnesses for testifying today as well.
	In the past several months, we have all become uncomfortably 
familiar with the topic at hand and with every hearing we learn a 
little bit more about it.  One of the topics of today's hearing, child 
modeling websites, is one that would not seem to pose a danger to 
our children when in fact young girls are often blatantly marketed 
in a sexual manner on these websites.  Child pornographers feel 
that they can evade law enforcement by running websites featuring 
children with clothing, no matter how little.  This should not be the 
case.  I also appreciate our other witnesses coming to help us get to 
the root of who a child predator really is.
	As we will hear, the grooming process that people put these 
young children through is absolutely sickening, and some of us 
have had an opportunity to view a video of an interview of 
someone who is incarcerated because of molesting young children 
and just about the process he would go through and how he would 
learn and choose his victims and groom these kids and their 
families in order to victimize them.  These people prey on the 
young and the impressionable.  They earn their trust, and then they 
take advantage of their innocence.  We will hear today that 
possession of child pornography opens the door to sexual offenses 
against children, and while this his undoubtedly important 
information to know, the question becomes how do we stop it?
	I am glad that this issue has become a priority for Chairman 
Whitfield and for this subcommittee and Mr. Stupak and the other 
members of the subcommittee.  It should really become a priority 
for this Congress.  It is our job as lawmakers, as educators, but 
most importantly as parents to protect our children at all cost.  
Again, I want to thank the witnesses for coming to the committee 
this morning, and I look forward to hearing from them today, and I 
yield back.
	MR. WHITFIELD.  Thank you, Mr. Ferguson.  There are no 
more opening statements, so we will go on and begin with the first 
panel.  I am going to introduce the first panel again.  First of all, 
we have Mr. Kurt Eichenwald with the New York Times.  We 
have Dr. Andres Hernandez who is the Director of the Bureau of 
Prisons' Sex Offender Treatment Program, and then we have Mr. 
Baxter, John Baxter, who is the Chief Psychologist with the 
Bureau of Prisons.
	It is my understanding, Dr. Baxter, that while you will not be 
giving an opening statement that you may make some comments 
during the question period or if we have questions for you, we can 
ask you questions.  In addition, we have Dr. Anna Carol Salter, 
who is with us by video conferencing, who is a psychologist, and 
does some work with the Wisconsin Bureau of Prisons and is an 
author on this subject.  She is testifying from Madison, Wisconsin.  
We appreciate your being with us, Dr. Salter.  And then we have 
Dr. Philip Jenkins, who is a Professor in History and Religious 
Studies and does work in this area as well from Pennsylvania State 
University up in University Park, Pennsylvania.  So we thank both 
of you for being with us this morning.  We look forward to your 
testimony.
	This is an Oversight and Investigations hearing, and it our 
custom to take testimony under oath, and I am assuming that none 
of you five have any difficulty of testifying under oath, so if you 
would stand and just raise your right hand, I would like to swear 
you in at this time.
	[Witnesses sworn]
	MR. WHITFIELD.  Thank you.  All of you are under oath now.  
And, Mr. Eichenwald, we will begin with you so you are 
recognized for 5 minutes for your opening statement.

TESTIMONY OF KURT EICHENWALD, REPORTER, THE NEW YORK TIMES COMPANY; DR. ANDRES 
HERNANDEZ, DIRECTOR, BUREAU OF PRISONS' SEX OFFENDER TREATMENT PROGRAM, 
FEDERAL BUREAU OF PRISONS, U.S. DEPARTMENT OF JUSTICE; DR. ANNA CAROL SALTER, 
PSYCHOLOGIST; AND DR. PHILIP JENKINS, PROFESSOR, HISTORY AND RELIGIOUS 
STUDIES, PENNSYLVANIA STATE UNIVERSITY

	MR. EICHENWALD.  Thank you, Mr. Chairman, Ranking 
Member Stupak, other members of the committee. I apologize if 
my voice is a little raspy this morning.  My name is Kurt 
Eichenwald, and I am a senior writer with the New York Times.  
This marks the second time I have been subpoenaed to testify 
before this subcommittee about my reporting on the dangers to 
children from adult predators online.  As someone who has 
emerged as an unlikely chronicler of this threat, I recognize that 
my testimony can assist you in your search for legislative 
solutions.  But, as in my April testimony, I would caution that, 
while I am able to inform you of the published findings of my 
investigations, I do not believe it is my place, nor do I believe I am 
qualified, to offer policy prescriptions.
	My reporting on Internet predators began in June 2005, with 
my discovery of Justin Berry, the young man who testified before 
the subcommittee in April about his experience of being lured into 
webcam child pornography at the age of 13.  At the time of that 
hearing, I was in the first days of a new investigative effort 
observing online conversations among pedophiles, beginning with 
those conducted on communication sites first identified to me by 
Justin.  In the months that followed, I discovered an array of places 
on the Internet where pedophiles gathered to swap stories, 
experiences, and tips.  These conversations seemed to reflect a 
belief among pedophiles either that no one outside their 
community was watching or that nobody could locate them.  Many 
readily admitted committing crimes or contemplating them.
	I remained immersed in these conversations for 4 months.  At 
no time did I participate to insure that my presence did not affect 
the direction of the discussions.  Throughout this period of 
reporting, I observed hundreds of conversations, ultimately 
recording the pedophiles' world and beliefs through their own 
words.  This investigation resulted in a two-part series last month 
on the front page of the Times.  I have submitted those articles to 
the committee as an exhibit.  What I discovered was terrible.  The 
online conversation sites, even those ostensibly set up to provide 
support to adults wrestling with their sexual attraction to children, 
proved to be a means for pedophiles to gain knowledge and 
assistance in making contact with minors in the real world.  But 
they also were part of an infrastructure established by pedophiles 
to rationalize and often celebrate their feelings and beliefs.
	From the conversations, I learned of Internet radio stations and 
downloadable pod casts put together by pedophiles for other adults 
attracted to children, online jewelry stores that sold pendants 
identifying the wearer to those in the know as a pedophile, as well 
as an active social movement that purports to be pushing for the 
rights of children to engage in sexual contact with adults.  The 
rationalizations for molesting children are repeated in these 
discussions, endlessly, to the point that participants exhibit almost 
a delusional view of the world.  They state repeatedly that sexual 
contact between adults and children is not only harmless, but 
beneficial, so long as it does not involve forcible rape.  I have 
witnessed conversations where pedophiles justify the molestation 
of autistic children under the age of 10, family members, and even 
of infants.
	Adults who attempt to protect children from molestation by 
pedophiles are deemed child haters.  Meanwhile, parents and other 
adults in children's lives are dismissed as impediments to the 
minors' happiness.  Many times conversation participants discuss 
their own past crimes involving children and their resulting 
imprisonment.  Speaking of their sentences as reflecting nothing 
more than the heavy hand of an authoritarian society.  In one 
instance, when a pedophile voiced regret for molesting a child, he 
was assailed as a traitor to the cause who had been brainwashed by 
society.
	Observing these conversations provided many disturbing 
moments.  Pedophiles would come online every day with stories of 
the children they had just seen.  Many of them were teachers and 
school administrators, describing children under their control.  
Others were pediatricians, talking about the delight they 
experienced during their latest physical exam of a child.  There 
were even fathers who discussed their own children in sexual 
terms, including one who graphically described watching his two 
young sons as they changed in a locker room.  To help the 
committee better understand these types of comments, I have 
attached one recent posting by a man who describes himself as a 
newly-trained kindergarten teacher, who discusses his desires to 
engage in sex with the little girls in his care.  It is my hope that by 
making this posting public someone may recognize the events 
described in detail by this individual, and stop him before it is too 
late.
	The innocent acts of childhood were often interpreted by the 
pedophiles as sexual come-ons by pre-pubescent children.  A 
second grader holding his crotch at school did not need to go to the 
bathroom, one of the pedophiles wrote, he was instead signaling 
his eagerness to engage in sex.  Pedophiles were convinced that 
children who sat with their legs apart were purposely trying to 
tempt them.  And one man described in detail watching a girl on a 
playground whom he was convinced was trying to lure him into 
sex.  The reason? When she did cartwheels in her skirt, he could 
see her panties.
	The pedophiles also celebrated something called model sites, 
which I learned were the explosive trend last year in child 
pornography.  By clicking on one of the many Web addresses 
posted in a discussion where no illegal sites were supposed to be 
linked, I ultimately found myself confronted by a page of images 
of pre-pubsecent little girls wearing virtually nothing, posed in 
seductive ways to meet the requests of pedophile subscribers.  
Given the nature of that site, as the law dictates, I immediately 
reported what I found to the authorities.  That site which boldly, 
and I believe falsely, proclaimed itself legal was run by a company 
called Playtoy Enterprises.  Playtoy attracted 6,000 members in 6 
months, all of whom paid $30 a month processed by credit card 
companies and online payment systems.
	Since publication of my articles, I have heard that Playtoy 
closed, but I discovered hundreds of such sites advertised on 
marketing portals for pedophiles.  I am sure that many of them are 
still around photographing little girls every week and posting their 
images for the entertainment of pedophiles.  Issues related to child 
pornography were frequent topics of conversation, including 
repeated advice from pedophiles about how to trade images 
without attracting the attention of law enforcement.  I have 
submitted a posting from a pedophile providing details of how 
savvy porn traders use technology to avoid detection.  This person 
is so certain he will not be caught that he even posted his entire 
hard drive directory of child porn videos, more than 100 gigabytes 
worth.  Included in those, based on the description, were videos of 
a child porn victim who has already testified before this 
committee.
	This posting makes clear that pedophiles understand how law 
enforcement is restricted in its investigative tactics and have used 
that knowledge to their advantage.  My 4 months of observing the 
pedophile conversations were nothing short of horrific, but they 
served to prove to me the importance, not only of this kind of 
reporting, but also of this committee's work to help insure the 
safety of our children.  Thank you.
	[The prepared statement of Kurt Eichenwald follows:]

PREPARED STATEMENT OF KURT EICHENWALD, REPORTER, THE 
NEW YORK TIMES COMPANY

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 


	MR. WHITFIELD.  Thank you, Mr. Eichenwald.  And, Dr. 
Hernandez, you are recognized for 5 minutes for your opening 
statement.
	DR. HERNANDEZ.  Good morning, Mr. Chairman, and members 
of the subcommittee.  I appreciate the opportunity to appear before 
you to discuss a variety of issues regarding the sexual exploitation 
of children over the Internet as it pertains to the Bureau of Prisons.  
The BOP made a commitment to the psychological treatment of 
sexual offenders in 1990 when the population of sex offenders in 
the Bureau of Prisons represented less than 1 percent of all Federal 
inmates.  Since that time, the proportion of sex offenders has more 
than doubled.  Today, the population of sex offenders in the BOP 
is well over 12,000.  This figure includes those serving a term of 
confinement due to a sexual offense and those with a prior history 
of sexual offending.  A significant number of sex offenders in 
Federal custody are convicted of Internet-related sexual offenses.
	The Sex Offender Treatment Program or SOTP was established 
in 1990 at the Federal Correctional Institution in Butner, North 
Carolina, but it was substantially revised and reorganized in 1997.  
It is a 112-bed voluntary residential therapeutic program that 
employs cognitive-behavioral and relapse prevention techniques to 
treat and manage male sexual offenders.  The primary goal of the 
SOTP is to help offenders manage their sexual deviance in an 
effort to reduce sexual recidivism.  The treatment program 
encourages its participants to change their criminal lifestyle and to 
become honest, responsible, and law-abiding citizens with 
effective self-control skills.
	Since its inception, the SOTP has treated several hundred child 
pornography offenders.  The vast majority of sex offenders in the 
SOTP are individuals convicted of possession, receipt, distribution, 
and transportation of child pornography.  The most common 
medium of receipt and distribution among inmates in the SOTP is 
the Internet.  Over the course of my 10 years of clinical work with 
federally-convicted sex offenders in the SOTP, I have observed 
that in the course of treatment many child pornography offenders 
admit to unreported sexual crimes, many of which include multiple 
sexual contacts with the victims.  I believed it was important to 
record this information and share it with the treatment 
professionals and researchers in this area of practice in order to 
spark the interest of the scientific and treatment communities to 
study this emerging population of sex offenders.
	In November 2000, I presented a poster at the annual 
conference of the Association for the Treatment of Sexual Abusers 
in San Diego.  This poster summarized archival data from 90 
inmates who had been treated in the SOTP.  Of that group, 62 were 
convicted of Internet-related sexual offenses.  These included the 
possession and distribution of child pornography, as well as the 
interstate travel with the intent to sexually abuse a minor.  At the 
time of sentencing, the group of 62 Internet sex offenders were 
known to have committed contact sexual offenses against a total of 
55 victims.
	Following treatment, the same group disclosed committing 
contact sexual crimes against an additional 1,379 victims.  In a 
subsequent analysis, I removed the offenders convicted of 
interstate travel with the intent to sexually abuse a minor from the 
group of 62 offenders.  This yielded 55 child pornography 
offenders.  The rate of contact sexual offenses recorded after 
treatment among this group was 80 percent.  The dramatic increase 
of previously unreported sexual offenses among the 62 offenders I 
treated was interesting and worthy of continued observation and 
study.  As a result, I have continued to record the incidence of self-
reported contact sexual criminality among Internet sex offenders in 
the SOTP.  The patterns I have observed more recently are 
consistent with those reported in the 2000 poster.
	I must stress, however, that the population of inmates in the 
SOTP is not representative of the entire population of sex 
offenders in the BOP.  While the 2000 and 2006 analyses reveal 
similar patterns, they represent heuristic observations and the basis 
for hypothesis testing which must be followed by rigorous 
scientific studies.  I am hopeful that the Bureau of Prisons and 
other researchers will be in a position in the future to provide you 
with a sound scientific basis for policy making regarding Internet 
sex offenders.
	The state of knowledge with respect to Internet child 
pornography offenders is in its infancy.  My observations of the 
offenders described above who participated in the SOTP indicate 
that these Internet child pornography offenders are far more 
dangerous to society than we previously thought.  But I caution the 
law enforcement community and others against generalizing 
beyond the offenders who were the subjects of my treatment 
interviews.  I urge the professional and scientific community to 
attend to this understudied group of offenders.  Chairman 
Whitfield, this concludes my formal statement.  I would be pleased 
to answer any questions you or other members of the 
subcommittee may have.
	[The prepared statement of Dr. Hernandez follows:]

PREPARED STATEMENT OF DR. ANDRES HERNANDEZ, DIRECTOR, 
BUREAU OF PRISONS' SEX OFFENDER TREATMENT PROGRAM, 
FEDERAL BUREAU OF PRISONS, U.S. DEPARTMENT OF JUSTICE

	Good Morning Chairman Whitfield and Members of the 
Subcommittee. I appreciate the opportunity to appear before you 
today to discuss a variety of issues regarding the sexual 
exploitation of children over the Internet as it pertains to the 
Federal Bureau of Prisons (BOP). I serve as the Director of the Sex 
Offender Treatment Program in Butner, North Carolina. I have 
held this position since 1997. Prior to my employment with the 
Bureau of Prisons, I worked as an Assistant Professor for the 
Department of Psychiatry and Behavioral Sciences at Baylor 
College of Medicine, where I also completed an internship and 
post-doctoral fellowship specializing in the evaluation and 
treatment of sex offenders. I have worked in the field of sex 
offender treatment since 1992. 
	The BOP made a commitment to the psychological treatment 
of sex offenders in 1990, when the population of sex offenders in 
the Bureau of Prisons represented less than 1% of all federal 
inmates. Since that time, the proportion of sex offenders has more 
than doubled. Today, the population of sex offenders in the BOP is 
over 12,000. This figure includes those serving a term of 
confinement due to a sex offense and those with a prior history of 
sexual offending. A significant number of sex offenders in federal 
custody are convicted of Internet-related sexual offenses. 
	As the federal sex offender population has increased, the BOP 
expanded the treatment capacity somewhat. Today, the Sex 
Offender Treatment Program (SOTP) has 112 beds at the Federal 
Correctional Institution (FCI) in Butner, North Carolina. The Sex 
Offender Management Program (SOMP), established in 2003 at 
the Federal Medical Center in Devens, Massachusetts, serves 
nearly 400 sex offenders by providing risk assessment and 
management services. Consistent with recently enacted legislation, 
the BOP is actively working to expand sex offender services by 
implementing additional SOMPs and SOTPs, as well as a forensic 
evaluation service. 

Overview of the Sex Offender Treatment Program at FCI Butner, 
NC
	The Sex Offender Treatment Program was established in 1990 
at FCI Butner, North Carolina, but it was substantially revised and 
reorganized in 1997. It is a voluntary, residential therapeutic 
program that employs cognitive-behavioral and relapse prevention 
techniques to treat and manage male sexual offenders. The primary 
goal of the SOTP is to help offenders manage their sexual deviance 
in an effort to reduce sexual recidivism. The treatment program 
encourages its participants to change their criminal lifestyle and 
become honest, responsible, and law-abiding citizens with 
effective self-control skills. Inmates in the program are assigned to 
approximately 15 hours of treatment activities per week. They are 
encouraged to participate in activities and programs that promote 
personal growth and development outside of the SOTP such as 
education and vocational training. The SOTP is divided into seven 
phases. Phase I orients the inmate to the SOTP, introduces him to 
treatment concepts, and begins the process of psychosexual 
evaluation, which includes phallometric assessment (i.e., penile 
plethysmography) and polygraph examination. Phase II involves 
treatment planning, assignment to therapy groups, and 
psychoeducational programming. In Phase II through VI, the 
inmate participates in group therapy and psychoeducation focusing 
on 1) Victim Impact Awareness, 2) Criminal Thinking and 
Cognitive Distortions, 3) Communication Skills and Conflict 
Resolution, 4) Emotional Self-Regulation, 5) Management of 
Deviant Sexual Arousal, 6) Relationship and Intimacy Skills, 7) 
Victim Empathy Enhancement, and 8) Relapse Prevention. Phase 
VII involves Community Reintegration and Release planning. 

Overview of the population of sex offenders in the SOTP
	The population of inmates in the SOTP is not representative of 
the entire population of sex offenders in the BOP. It represents a 
unique group of offenders with the following general 
characteristics: 1) they have volunteered to participate in treatment 
and accept some degree of responsibility for their crimes; 2) speak 
English; 3) are not severely mentally ill; 4) do not have detainers 
or pending charges that would affect their release to the 
community; and 5) do not have a history of negative institutional 
adjustment. The vast majority of the inmates in the SOTP are 
highly educated, and have marketable job skills. These 
characteristics, and their willingness to volunteer for treatment are 
not typical of all sex offenders in the BOP. 
	Since its inception in 1990, the SOTP has treated several 
hundred child pornography offenders. The vast majority of sex 
offenders in the SOTP are individuals convicted of Possession, 
Receipt, Distribution, and Transportation of Child Pornography. 
The most common medium of receipt and distribution among 
inmates in the SOTP is the Internet. 
	Over the course of my ten years of clinical work with federally 
convicted sex offenders in the SOTP, I have observed that in the 
course of treatment many child pornography offenders admit to 
unreported sexual crimes, many of which include multiple sexual 
contacts with the victims. I believed it was important to record this 
information and share it with treatment professionals as well as 
researchers in this area of practice, to spark the interest of the 
scientific and treatment communities to study this emerging 
population of sex offenders. 

The ATSA Poster Presentation
	In November 2000, I presented a poster at the annual 
conference of the Association for the Treatment of Sexual Abusers 
(ATSA) in San Diego, California, entitled "Self-Reported Contact 
Sexual Offenses by Participants in the Federal Bureau of Prisons' 
Sex Offender Treatment Program: Implications for Internet Sex 
Offenders." This poster summarized archival data from 90 inmates 
who had been treated in the SOTP. Of that group, 62 were 
convicted of Internet-related sexual offenses. These included the 
possession and distribution of child pornography, as well as 
interstate travel with the intent to sexually abuse a minor (i.e., 
"travelers"). At the time of sentencing, the group of 62 Internet sex 
offenders were known to have committed contact sexual offenses 
against a total of 55 victims. Following treatment, the same group 
disclosed committing contact sexual crimes against an additional 
1,379 victims. Only 42 percent of the offenders were known to be 
contact sexual criminals at the time of sentencing; following 
treatment, 76 percent reported contact sexual crimes, an increase of 
34%. In a subsequent analysis, I removed the "traveler" offenders 
from the group of 62 subjects. This yielded 55 child pornography 
offenders. The rate of contact sexual offending recorded after 
treatment among this group was 80 percent. 
	The dramatic increase of previously unreported sexual offenses 
among the 62 offenders I treated was interesting and worthy of 
continued observation and study. As a result, I have continued to 
record the incidence of self-reported contact sexual criminality 
among Internet sex offenders in the SOTP. The patterns I have 
observed more recently are consistent with those reported in the 
2000 poster. 
	Recently I have reviewed and summarized my observations 
regarding a second group of offenders who participated in the 
SOTP. The group consisted of 155 men who were convicted of 
Internet child pornography possession and/or distribution. Again, I 
compared the number of contact sexual offenses that were known 
to the criminal justice system upon sentencing with those reported 
over the course of treatment in the SOTP. At the time of 
sentencing, 115 (74%) subjects had no documented hands-on 
victims. Forty (26%) had known histories of abusing a child via a 
hands-on sexual act. The number of victims known at the time of 
sentencing by the 155 subjects was 75. Following treatment, the 
inmates disclosed perpetrating contact sexual crimes against 
another 1,702 victims. Eighty-five percent of the inmates were in 
fact contact sexual offenders, compared to only 26 percent known 
at the time of sentencing. Thus, both groups of Internet child 
pornography offenders treated in the SOTP included a significant 
proportion (i.e., 80% to 85%) of offenders who perpetrated contact 
sexual crimes. These findings are consistent with my clinical 
experience treating Internet sex offenders for the past ten years. 
	While the 2000 and 2006 analyses reveal similar patterns, they 
represent heuristic observations and the basis for hypothesis testing 
which must be followed by rigorous scientific studies. I am 
hopeful that Bureau of Prisons and other researchers will be in a 
position in the future to provide you with a sound scientific basis 
for making policy decisions regarding internet sex offenders. 
	While the relationship between contact sexual criminality and 
Internet child pornography offenders is an important area of 
scientific inquiry, there are many other questions that remain 
unanswered. Among these are: 1) what are the protective factors 
that keep some Internet child pornography offenders from 
perpetrating contact sexual crimes; 2) what are the psychological, 
social, technological and other factors that facilitate sexual 
offending among Internet offenders; 3) are there different types of 
child pornography offenders; and 4) does Internet child 
pornography create sexual deviance among the viewers or 
consumers. These and many other questions need to be the focus of 
discussion, debate, and research among the scientific, professional, 
and law enforcement community. 

Effectiveness of sex offender treatment
	With respect to treatment outcome, the BOP has been studying 
the effectiveness of the SOTP. The results of this research are not 
available at this time. This is a long-term endeavor that will take 
several years to complete. However, while the effectiveness of the 
SOTP at FCI Butner remains to be proven, there is a growing body 
of scientific literature suggesting that treatment is effective in 
reducing the risk of recidivism. It appears that cognitive-behavioral 
and psychopharmacological treatments have the strongest effect. 
The SOTP employs these methodologies. 

Closing
	The state of knowledge with respect to Internet child 
pornography offenders is in its infancy. My observations of the 
217 offenders described above who participated in the SOTP 
indicate that these Internet child pornographers are far more 
dangerous to society than we previously thought. But, I caution the 
law enforcement community and others against generalizing 
beyond the offenders who were the subjects of my treatment 
interviews. I urge the professional and scientific community to 
attend to this understudied group of offenders. 
	Chairman Whitfield, this concludes my formal statement. I 
would be pleased to answer any questions you or other Members 
of the Subcommittee may have. 

	MR. WHITFIELD.  Thank you, Dr. Hernandez.  We appreciate 
your testimony.  At this time, I would like to recognize Dr. Anna 
Carol Salter for her 5-minute opening statement, and we appreciate 
her being with us this morning.
	DR. SALTER.  I am very happy to be here.  I am a psychologist 
in Madison, Wisconsin, and I have assessed and treated sex 
offenders since the mid-80s for over 20 years.  I was asked to 
introduce myself briefly.  I have written three academic books on 
sex offenders, Treating Child Sex Offenders and Victims: A 
Practical Guide, in 1988.  I also wrote Transforming Trauma, 
Understanding and Treating Adult Survivors of Child Sexual 
Abuse in 1995.  In 2003 I wrote Predators: Pedophiles, Rapists, 
and Other Sex Offenders: Who They Are, How They Operate, and 
How We Can Protect Ourselves and Our Children.  Currently, I 
work half time for the Department of Corrections in Wisconsin.  I 
also do civil commitment evaluations for sex offenders in the State 
of Iowa and sometimes other States.  I have done trainings for 
mental health professionals, judges, clinicians, prison staff, et 
cetera.  I have trained in 46 States and 10 countries.
	Now for my testimony today, I decided to submit a video of a 
sex offender describing the grooming techniques that he uses to 
ingratiate himself with victims and to fool their parents.  I did that 
because it is my belief that my committee has probably heard from 
many more professionals than they have from offenders, and the 
offenders are really the experts on how they get access to children.  
No one speaks more powerfully than they do.  The interview that I 
conducted was done in a State prison.  Permissions were obtained 
from the prison officials to approach the offenders.  The offenders 
were asked if they wanted to participate.  They were told that the 
film would not be used to help them and it would not be used to 
hurt them either, and that they would be anonymous in the sense 
that I wouldn't release information about their identities.
	With those simple protections in place really the only thing I 
promised is that I wouldn't give out information about their 
identities, it was amazing how many offenders wanted to talk 
about how they accessed children.  I am sure that the committee 
saw the sparkle in Joe's eyes when he talked about it.  There is a 
great deal of joy in many offenders.  There is also a great deal of 
duke and delight.  I think that the offender that you saw fooling the 
parents was probably more exciting than actually molesting the 
children.  I think if you did see the video, you also saw how 
sophisticated the grooming techniques can be, and you can tell just 
from watching this man how well he could present if he chose to.
	You might be interested in what happened after the film was 
made.  He was released from prison.  He relocated to a city in the 
State he was in, and one day he walked into a church and said to 
the minister, Father, do you take ex-cons?  This was after the 
service.  The minister said, well, if they are truly repentant, we do.  
And Joe said, oh, I am, Father, I am.  I was in prison for passing a 
cold check, which was a lie.  He was in prison for child 
molestation.  And while I was there I found Jesus.  I was dyed in 
the blood of the lamb, and I had hymns that I dearly loved, and I 
knew what whatever church was playing that hymn on Sunday 
morning, that was a sign from God that that was the church for me, 
and, Father, you were playing that hymn.
	So the minister took him in and he very quickly took over the 
children's choir.  He was a professional musician.  In any case, 
eventually the authorities caught up with him.  He had offered for 
the minister to call the prison and he had given him the name of the 
prison, but because he offered the minister hadn't done so thinking 
he must be legitimate.  Sooner or later a parent wondered why 
there was a felon running the children's choir and asked what they 
knew about him, and then they did call the prison.  When they 
caught up with him, it turned out he was operating in two churches 
at the same time.  And the second minister said we thought he was 
legitimate.  You see, he had this hymn that he dearly loved and we 
were playing that hymn on Sunday morning.
	In talking about Joe and in showing that film, however, I don't 
mean to imply that all sex offenders can't be treated.  I don't think 
treatment, frankly, is going to do much good for Joe and it hasn't 
in the past.  But the reality is that a recent meta-analysis showed 
that we can get about a 40 percent reduction in re-offending 
through treatment.  Forty percent isn't ideal, but it is a tremendous 
boom to victims.  It means a lot fewer victims out there.  The only 
group that we can't seem to get a reduction with are psychopath 
offenders who don't have a conscience.
	I will also say to you that I am not optimistic about educational 
programs for parents.  I find that the average person cannot 
distinguish between likeability and trustworthiness and some of 
these offenders are extremely, extremely likeable.  I simply find 
that likeability will override even a criminal record of child 
molestation any day of the week.  And that is really all I have for 
my opening statement.
	[The prepared statement of Dr. Salter follows:]

PREPARED STATEMENT OF DR. ANNA CAROL SALTER, 
PSYCHOLOGIST

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

	MR. WHITFIELD.  Thank you, Dr. Salter.  At this time, we will 
recognize Dr. Philip Jenkins for his 5-minute opening statement.
	DR. JENKINS.  Thank you very much, Mr. Chairman, and 
members of the subcommittee.  In the year 2000, I had access to 
the proceedings of a bulletin board which was the meeting center 
for very large scale dealers, traffickers, and manufacturers of child 
pornography.  The material I found there surprised me enormously 
because it ran so contrary to everything in the literature.  Quite a 
lot of the literature still suggests that child porn on the Internet is 
largely a myth or that it results from a misinterpretation of 
ambiguous or relatively low level material.  That turned out to be 
completely wrong, and in contrast to the material Mr. Eichenwald 
has described, and his work is of course very important.
	This was really the most dangerous hard core material that was 
being circulated, and I would ask you to focus just on the concept 
which is what is called the KG and KX series of child 
pornography.  In the 1990s a man in Denmark or German had a 
wife who ran a kindergarten and in the space of a couple of years 
he took many thousands of images and videos of young girls aged 
between three and six, either nude or engaged in sex with adult 
men.  The most loathsome kind of material, and that was only one 
sort of material that was available at that point.  When you look at 
child porn offenders, when you read about somebody who has 
been arrested for the possession of say 50 images, please 
remember that there are many people out there whose collections 
run between 50,000 and 100,000.  I believe the largest collection I 
have ever seen, in reference to 120,000 images.
	When we think about child porn offenders, please remember 
that these elite dealers and manufacturers exist out there in a very 
large way and have virtually no fear of law enforcement.  There is 
something they are afraid of, but it is not law enforcement.  What 
they are afraid of and the group that did them the most harm in the 
period of time we were looking at them was what you could only 
call cyber vigilantes, white hat hackers.  These people spend a 
great deal of their time frankly making fun of law enforcement 
agencies, but when the subject of vigilantes, clinical people, people 
with their technical level of skill was raised, that is when they 
became alarmed.
	I came across many people in 2000 who had been working on 
the Internet, working on computers for 20 years back from the year 
1980.  Think of the level of experience and technical expertise they 
had and then imagine how difficult it is for an ordinary law 
enforcement agent to deal with that.  The other word I want to 
emphasize here is global.  This enterprise is absolutely global and 
the most important single thing that happened in the child porn 
world in the last 15 years was the liberalization of the Soviet 
Union, the break up of the Soviet Union and the East European 
nations.  This is now, I believe, where a vast amount of this 
material is manufactured from which it is circulated.  Just 
remember, for many of these consumers it is a very strong racial 
element.  They used to have to deal with photos of Asian children, 
but now they have white blonde children and from this very racist 
mindset obviously, that is seen as so much more preferable.
	A very quick word finally on the subject of profiling.  We have 
to be so careful about profiling because usually the people we are 
profiling are the ones who have been arrested and very often they 
are quite low level figures.  The thing that strikes you, if you look 
at the boards.  Dr. Salter made a very wise observation that the 
offenders are the experts.  I suggest that the offenders who have 
not yet been arrested are the experts because they very often speak-
-and I have absolute respect for her very valuable work.  The most 
dangerous thing, and I echo what she says, is how normal they are, 
and these boards very often feature discussions about the morality 
of the trade.
	Somebody who is a major dealer will raise the subject has it 
occurred to you what we are doing is wrong, and they will bounce 
back on this for hours, and very often, as Mr. Eichenwald says, 
they were using children's rights rhetoric; we are in this to defend 
children.  So just to emphasize two things.  No solution is going to 
happen unless it is on a global basis and involves international 
cooperation, but it is the technical people, the website providers, 
and very often the hackers who are the people who can make the 
largest single impact on this alarming subject.  Thank you very 
much.
	[The prepared statement of Dr. Jenkins follows:]

PREPARED STATEMENT OF DR. PHILIP JENKINS, PROFESSOR, 
HISTORY AND RELIGIOUS STUDIES, PENNSYLVANIA STATE 
UNIVERSITY

	I have published extensively on matters of child abuse and 
molestation, and child protection. Between 1999 and 2001, I had 
access to a series of bulletin boards frequented by dealers, 
traffickers and manufacturers of child pornography, and also major 
consumers and collectors of this material. (I describe the center of 
this activity by the pseudonym "the Maestro Board").  Because this 
material was entirely verbal and text-based, I was able to access it 
without confronting the legal and ethical dilemmas involved in 
visiting sites where actual images were portrayed. My findings 
were published in my 2001 book Beyond Tolerance: Child 
Pornography on the Internet (New York University Press). 
Though I have kept up with later developments in the field, I have 
made no attempt to revisit these boards, nor would this be possible 
today, since all are now password-protected, and the only way to 
gain access would be to supply original material - that is, to 
provide fresh images or videos of children. 
	I would also stress other limitations of my study. For one thing, 
the boards I was observing catered to images of small girls, 
whereas the excellent investigations of Kurt Eichenwald focused 
on sites dealing with young boys: the two areas of interest seem 
not to overlap in the slightest. From the nature of the material, 
moreover, I have no idea of the actual identities of participants, nor 
the scale of the enterprise. In cases where I had any positive 
evidence that might point to actual identities or rings, I have 
supplied that information to law enforcement agencies. I have also 
supplied these agencies with full copies of all the electronic 
materials I collected during my study.
	Based on this research, I would draw several conclusions. 
Except where stated otherwise, I believe that each of these 
statements remains true today, and conditions may actually have 
become more serious

1.Child pornography is not a myth
	It seems odd to start with such a statement, but it is necessary. 
Even well-informed commentators dismiss the child porn 
subculture as a moralist myth, perhaps a kind of conservative 
urban legend, like snuff films. Some years ago, in her otherwise 
engrossing study of Internet censorship debates, Net.Wars, Wendy 
Grossman occasionally refers to child porn as one of the factors 
leading people to support restrictions, though in reality, (she 
asserts) only a "small amount of material... shows up on the Net." 
She also writes that "many of the newsgroups with names like 
alt.binaries.pictures.erotica.children were probably started as 
tasteless jokes, and are largely taken up with messages flaming the 
groups." This remark is ironic since 
alt.binaries.pictures.erotica.pre-teen (abpep-t) is an all too real 
phenomenon: by 2000, abpep-t boasted some 40,000 postings, 
mainly images of young girls from toddlers through puberty, and 
this newsgroup for years served as a central institution of the 
kiddie porn Net-culture. In Erotic Innocence, his fine book on 
contemporary attitudes to childhood sexuality, James Kincaid 
writes that in the mid-1990s, "researchers found nothing on the 
Internet that is not also in adult bookstores," though there might be 
a marginal trade in child porn, "a cottage industry of sorts, a wary 
trading of photos and old magazines back and forth among a small 
number of people." Otherwise, he argues, the only people 
distributing child porn online are government agencies, seeking to 
bait traps for pedophiles. Another major work on commercialized 
sex is Laurence O'Toole's Pornocopia. After describing a 
celebrated child porn arrest in Great Britain, O'Toole argued that:

When... the hullabaloo over transnational Internet child porn 
rings ultimately amounts (in the UK at least) to the possession 
of three images dating back a quarter of a century, people are 
bound to wonder about the true nature or extent of the dangers 
of child porn in cyberspace ..... a lot of the materials described 
as 'child porn' are in fact nude pictures of children taken from 
art-work, family albums and naturist materials.

Many of the materials do indeed fall into these categories, but 
hundreds of thousands of other images do not; and whereas a large 
number date back a quarter of a century, many others were made 
this year. And they are far more alarming than these accounts 
would suggest.
	To illustrate this material at its vilest and most exploitative, we 
might consider the more recent KG and KX series, the 
"kindergarten" photos, which together represented perhaps the 
most prized collections available on the Net as of 2000-2001. KG 
is a series of many thousands of nude images of several very young 
girls, mainly aged between three and six years old, with each item 
including the girl's name, like Helga, Inga, and so on. The 
photographs date from the mid-nineties, and they likely derive 
from either Germany or Scandinavia. In the words of one fan of 
the series, "Once upon a time. There was a chemist that had earned 
his Ph.D. Well, he got married and along with his wife opened up a 
day care center. Well, as the story goes, he managed to take 
pictures of lots and lots of things. Eventually he got busted." The 
KG collection exists in parallel with a still more sought after 
version, KX, which depicts the same children in hard core sexual 
situations with one or more men. Put simply, most are pictures of 
four and five year old girls performing oral sex and masturbation 
on adult men. The immense popularity of the KG images ensured 
an enthusiastic market for KX, which entered general circulation in 
2000. 
	We should also remember the case of "Helena," probably a 
British girl, who, tragically, was long one of the best-known sex 
stars on the Web worldwide. In the late 1980s, as a little girl of 
seven or eight, Helena became the subject of a photo series which 
depicted her not only in all the familiar nude poses of hard-core 
pornography, but also showed her in numerous sex acts with 
Gavin, a boy of about the same age. Both are reportedly shown 
having sex with an adult man, presumably Helena's father. The 
images are collectively known by various names, but the 
commonest is "hel-lo," that is, "Helena/lolita." Since their first 
appearance, they have had an astonishing afterlife, and probably 
not a day has passed without the hel-lo images appearing anew on 
some electronic server somewhere in the world, and they are 
cherished by thousands of collectors worldwide. They seem to be 
the standard starter kit for child porn novices. In addition, Helena's 
pictures form part of a much larger series, known under titles like 
hel-anal, hel-cum, hel-louise, and so on. Hel-lo itself was recently 
described by a child porn enthusiast as 
the greatest HC [hardcore] series ever made! She was 'acting' 
since she was a toddler until she was twelve years old, which 
means there are thousands of pics of her in action out there 
somewhere! No other series compares!!!
	
In addition to the traffic in visual images, many Usenet sites cater 
to pedophile interests through stories and written fantasies, which 
are entirely supplied by amateurs catering to other enthusiasts. In 
the language of the dissident underground of the old USSR, they 
are purely samizdat, "self-published." These stories are originally 
posted in Usenet groups, and subsequently collected in open 
websites. These written works are almost certainly legal protected 
speech within the United States, which is paradoxical in that these 
stories are often grossly violent or even homicidal in their content. 
To put the paradox at its simplest, a photograph of a naked five 
year old girl happily eating an ice cream on the beach may be 
criminalized, even if the child is shown accompanied by doting 
parents, but it is quite legal to publish a detailed fantasy about the 
rape, torture and murder of the same child. To give an idea of the 
content of some of these tales, the following represents a selection 
of the new stories listed on one extreme content site a few years 
ago, together with the editor's summaries of the themes offered in 
each case (NC is non-consensual, "scat" is scatological, "ws" 
means water sports or urination, snuff means killing):

14 Year Old Avenger by brisko65 (Pedo, Bi sex, Scat, WS, 
Vomit, Animal, Torture, Spanking, Snuff, Incest) 
A Hunt by ***** (Rape, Torture, Cannibalism, Snuff)
A Little Inheritance by S.o.S. (Incest-daddy/daughter, Pedo, 
Oral) 
A Night in the Kids Room by S.o.S. (Pedo/toddler, Incest-
brothers/sisters, Oral, Anal, Gangbang)
Amanda the Slut Episode 1 by sex freak (Preteen, NC, S/M, 
Suggested snuff) 
Anne by Kinnik (Rape, Pedo, Torture, Snuff)
B&B 2-Dad visits Kids by Chucketal (Incest-father/son, Pedo)
Baby in the Arcade by S.o.S. (Drug use, Pedo, Toddler rape) 
Baby Sex is the Best - Part II by Evil Dad (Child rape & abuse, 
Pedo, Scat, WS) 
Children's Ward by xtight (Pedo, Anal) 
Do You like my Bottom Daddy? by UK Snowy (Oral incest-
father/daughter, Pedo) 
Fucking in the Family - The Tradition Continues by Lund 
Pasand (Incest-whole family, Pedo, First time) 
Nigger Lust by N-lover (Hetero sex, Pedo, Racist, Interracial, 
Scat, WS) 
Off the Bone by UK Snowy (Rape, Pedo) 
The Most Perfect 10 by ***** (Bi sex, Pedo, Fisting)

	By no means all story groups are anything like so bizarre or 
repulsive in their content, and this is avowedly an extreme site. 
Nevertheless, the predominance of underage themes is notable. Of 
44 new stories listed at this site in April 2000, no less than twenty 
included "pedo" (pedophile) or "preteen" as one of their subject 
keywords. 

2.The available material is vast in scale, and new material is 
coming on line more or less daily
	Just how easy it is to find these materials needs to be stressed.  
Both the price and quality of illegal commodities are greatly 
affected by the relative success of law enforcement intervention. 
When for instance police and customs are waging a particularly 
successful war against the cocaine trade, making major seizures, 
the price of cocaine on American streets rises steeply, while the 
quality of the substance being retailed falls dramatically. 
Conversely, weaker police responses are reflected in bargain 
basement prices and higher purity at street level. Applying this 
analogy to child pornography produces disturbing results. In the 
mid-1970s, a child porn magazine containing thirty or so pictures 
might cost ten dollars in an American city. Today, the entire 
contents of that same magazine are available through the Internet 
for free, as are tens of thousands of other more recent counterparts. 
A month or so of free web-surfing could easily accumulate a child 
porn library of several thousand images. The only payments or 
charges involved would be the standard fees for computer connect 
time, and the cost of storage materials. Prices in the child porn 
world have not just fallen, they have all but been eliminated. 
"Quality" has also improved immeasurably, in terms of the range 
of materials on offer: arguably, the images now coming on line are 
becoming ever more explicit and hard-core. Applying the drug 
analogy suggests that the role of law enforcement in regulating 
supply is approximately zero. I want to keep this problem in 
perspective, since the actual numbers of hardcore traffickers are 
not vast: we are probably talking about a subculture numbered in 
the tens of thousands worldwide, together with a significant 
number of casual browsers, but even so, the scale of the enterprise 
they support is depressing, as is the constant infusion of new 
materials.
	To put this in context, I would suggest that thee typical major 
collector would possess upwards of forty or fifty thousand items, 
videos and images, tho9ugh collections do run into the 100,000-
plus range. This is worth remembering when we read about child 
porn arrests of some individual who has perhaps fifty or a hundred 
such images.

3.The child porn subculture on the internet is not based on any 
close-knit hierarchy, but rather involves a network of 
individuals who probably do not know each other's names. 
Though networks certainly exist, they are numerous and quite 
distinct from each other. There is no single "child porn mafia"
	In the countless board discussions on security, one recurrent 
theme is that of "safety in numbers", in other words, that porn 
users could in theory be tracked down, but the sheer volume of 
traffic makes this next to impossible. In a discussion of the wisdom 
of using abpep-t, the child porn guru "Godfather Corleone" 
advised that 

There are millions of people using newsgroups, and tens of 
thousands of them do visit abpep-t on a very regular base. 
Therefore the likelihood the server would want to spend time 
tracing someone down for visiting a newsgroup they are 
responsible for providing people with, is rather small.

Such comments raise the difficult but inevitable question of just 
how large a community we are dealing with, and the Godfather's 
remark about "tens of thousands" is not only plausible, but perhaps 
modest.
	At a given moment on an average day, the main flagship 
discussion board contained contributions from about sixty or so 
pseudonymous contributors, though that is only a snapshot, and the 
total contributing during a whole day is considerably larger. Given 
the delicate subject matter, the figure for "lurkers" (people who 
observe but do not contribute) is likely to be far larger than for 
typical Usenet groups. At a minimum, the Maestro community 
certainly ran into several thousand. A useful analogy may be 
provided by other less popular child porn sites which record the 
number of hits for each posting. The volume of hits largely 
depends on the plausibility that the original message does in fact 
lead to a genuine CP site, but where the poster is well-known and 
trusted, the number of hits is usually between two and four 
thousand, and may well approach ten thousand. Of course, a 
person might visit a particular site only sporadically, or concentrate 
only on one board to the exclusion of others. Still, that provides an 
absolute minimum for the size of the core CP community on the 
Internet, those who frequent at least one of the various boards on a 
regular basis: we have already seen that egroups sites with child 
porn content can run to several thousand members.  Confirming 
this scale, G-Man, one of the most experienced contributors to the 
flagship board, wrote that "To each of my posts I get approx 1,000 
to 5,000 visitors to my site (nearly 90,000 in the past five weeks!)" 
	Gauging the scale of the pedophile audience is a frequent 
talking point on the boards. One recent posting ran as follows: 

When you think about it, just how many lola lovers do we 
have here, maybe? 10,000 15,000 visit this board, what about 
other boards, and what of the others that can not find this and 
other boards? I have seen some of the log files from some of 
the net's search engines, and the top search is childporn and all 
the Lola lovers that don't have a computer, there must be 
millions out there some where ;). 

Others agreed: 

*Tomcat> I had a site posted here with a counter that showed 
approx. 3,000 access after 4 hours, before the site was shut 
down. Extrapolate this to a whole day could be 18,000 only 
from this board at one day. And there are many more surfing 
in news (probable ratio 1:10 or more) and other boards. The 
number is constantly increasing as more people get access to 
the net. There was about half of them about half a year ago, 
and the increase itself is increasing. So no need to feel alone. I 
guess the ratio of posters and lookers on this board is about 
1:100 or more.... That's the reason why I'm always stating that 
busting them all would hurt national economics.  
* Zep > 12 months ago ***'s site, which had links to BBS's on 
its front page, was getting over 30,000 hits a day before the 
counter was taken off. *** BBS its 'finest hour' (when this 
BBS went down for about 3 days about 6 months ago), was 
getting over 50,000 hits a day over this period. No, we are not 
alone in this world.  

I stress, though, that we are dealing with core activists, since casual 
browsers might be much more numerous. 
	Putting the different boards together, I would guess that the 
core population as of year 2000 should be counted somewhere in 
the range of perhaps fifty to a hundred thousand individuals, 
though that is a very loose figure. It is also a global number: 
perhaps a third of these are located in the US. Given the 
phenomenal expansion of the Internet since the mid-1990s, we can 
assume that this figure is changing very rapidly, and certainly 
expanding. While some old hands send farewell messages 
explaining that their interests have moved on to other things, 
almost every day on the boards we find first postings by recently 
arrived "newbies."
	It is even more difficult to assess the demographics of the 
audience for this (or any) board. In many situations on the Internet, 
people tend to assume personas which are not necessarily their 
own, and in an illegal setting like this there are powerful reasons to 
affect a different identity. A general impression, though, suggests 
that the vast majority of contributors to the board fall into the 
category of males, aged between perhaps 25 and 55, mainly white 
but with a sizable Asian minority. This would certainly account for 
the vast majority of recorded arrests. My impression may be false 
in a number of ways, as several major users at least claim to be 
much younger than this would suggest, aged in their late teens. 
Given the distribution of computer skills across the population, a 
large cohort of teens and young adults would be quite predictable.
	Nor can we say much about participants' regional or 
occupational backgrounds, except to say that both are highly 
diverse. This is indicated by the membership of the Wonderland 
Club, which as we will see, was a closed network of elite 
traffickers broken up in 1998. The Wonderland group included 
some two hundred members in over forty countries, including the 
US, Great Britain, Australia, Italy, France, Norway, Sweden, 
Germany, Austria, Belgium, Finland, and Portugal. American 
members included "an engineer from Portland, Maine, a scientist 
in New Britain, Conn. Other suspected members lived in sleepy 
towns like Broken Arrow, Oklahoma; Lawrence, Kansas; and 
Kennebunk, Maine.... A suspect living in a trailer park in St. 
Charles, Mo., was arrested after agents found, along with child 
porn, firearms and a stash of the black powder used to make 
bombs. According to Customs agents, a law student in New York 
City threw his hard drive into a neighbor's yard." Of the first eight 
members charged in the UK, we find three computer consultants, 
unsurprisingly in view of the level of expertise required for this 
world, but there were also two taxi drivers, and three men who 
were described as unemployed. 
	Gender represents another controversial point. Messages are 
often posted by individuals identifying themselves as women, and 
these claim that far more adult women are sexually interested in 
young girls than is commonly realized. One of the major posters on 
the boards over the last year or two bears the handle "Goddess." 
Goddess's real identity is controversial. Asked to speculate on the 
appearance of contributors, one contributor wrote that he saw 
"Goddess as a rebellious schoolgirl with holes in her jeans 
(probably she is a he and 50 years old)." Still, lending credibility to 
claims of female involvement, there are documented cases of girls 
and women being involved in making and distributing electronic 
child porn, although I presume they represent a small minority of 
activity. Generally, we can safely assume that the bulk of board 
traffic is the work of white men in their thirties and forties.

4.Many of those involved in the subculture are strikingly 
"normal". This has critical implications for the potential for 
deterrence.
	The reasons why adults become sexually interested in children 
are much debated, but given that this enthusiasm does exist, it is 
not difficult to see why it should find such a friendly environment 
on the Internet, with its anonymity and its ability to transcend 
jurisdictional borders. We can also appreciate how novices should 
find it so easy to be drawn into the subculture, and once involved, 
to absorb its values and practices. In many ways, the seemingly 
aberrant world of child porn on the Net represents not a total break 
with approved mainstream ways and mores, but their extension 
into illegality. 
	Some degree of tolerance of illegality is common to Internet 
culture in general. The whole world of electronic communication 
has developed so rapidly that rules and laws are poorly formulated, 
and it is common and approved practice for computer users to 
violate regulations. People who would never dream of committing 
larceny or burglary in the "real" material world think nothing of 
hacking an Internet site, using a purloined password, or copying 
software illegally, while a widespread opinion holds that copyright 
rules simply do not exist on the Net. If something works and 
produces benefit without harming an individual (as opposed to a 
faceless corporation) then it is acceptable and approved. Even if 
technically criminal, misdeeds on computers are likely to be 
viewed by many as pranks rather than heinous offenses, and this 
approach is largely shared by the media. When, as happens from 
time to time, a hacker succeeds in changing the website of a police 
agency so that it suddenly depicts hard-core pornographic material, 
the news media tend to report the story as quirky or humorous, 
rather than a dreadful crime (sabotaging or closing down a popular 
site is a different matter). The idea of seeking forbidden material 
on the Internet is natural and even socially approved, so that the 
heroic deeds of hackers and outlaw computer wizards are the 
subject of a hundred Hollywood films. When some years ago an 
Israeli teenager hacked into important US government sites, that 
nation's then Prime Minister, Benjamin Netanyahu, offered the 
Americans a cursory apology, but used the incident at home to 
boast of Israel's technological prowess and sense of adventure. 
Conversely, authorities who try and prevent these efforts are 
reactionaries, stuffed shirts, control freaks: the enemy.
	Occasionally, the fervently libertarian ethos of the Internet can 
extend even to something as condemned as child porn. In a curious 
case in 1998, the manager of a small Californian ISP discovered a 
child porn web site, which she duly reported to authorities, and 
then tried herself to gain more information about the site's 
operators. She soon encountered a fiercely critical reaction from 
other Internet users, including a hacking attack that shut down her 
site. The issue was less tolerance of child porn as such than her 
apparent vigilantism, and her willingness to draw officialdom into 
what should ideally be the self-regulating world of the Net. 
	On the Internet, rules are made to be broken. This attitude is 
facilitated by the user's psychological sense that whatever occurs 
in a computer transaction takes place within his or her own private 
space. Although one is visiting a site based in Singapore, the 
individual is viewing it on a screen at home in London or in an 
office in Los Angeles, and it is intuitively obvious that this is 
where the transaction is really occurring. One can after all interrupt 
the process at any time to get up and make coffee or wash the car. 
The attitude seems to be that it is my home, my desk, my 
computer, and my business what I do with it. This is one reason for 
the ferocious opposition to schemes to tax commercial transactions 
on-line: why should the state of California, say, be able to charge 
sales tax on business which is self-evidently done on a desktop in 
Connecticut? This sense of private space also promotes a sense of 
invulnerability: it is difficult to take seriously all the jeremiads 
about the lack of privacy on the Net when the user feels that he or 
she is pursuing a personal interest at home, with no one apparently 
watching. Even in the case of child pornography, the absolute legal 
prohibition on private use is not as widely understood as one may 
think. In a surprising survey some years ago, Kimberly McCabe 
questioned a sample of citizens who attended law enforcement-
sponsored crime-watch meetings in two cities in the US South, 
people who might be presumed to have some interest in criminal 
justice issues. Even so, a third of her sample agreed with the 
statement that "Downloading child pornography from a newsgroup 
is legal." Just under eight percent believed that "Possession of 
sexual material involving a minor is legal," and the same 
proportion felt that "viewing computer-generated children in 
sexual materials is okay." 
	Also making the child porn subculture more apparently 
acceptable is the lack of overtly deviant behaviors or markers 
associated with the activity. Participants do not assume an overtly 
deviant role in the way that they would if they joined a gang or 
cult: they need not shave their heads, wear special clothing, or 
attend a meeting every week or even every year, nor need they 
relocate to a compound or commune. Entering the child porn 
culture might mean assuming or affecting a deviant identity, but 
one that has no physical manifestations, or which need continue 
after one has switched off the computer. This particular subculture 
is one which can be joined without physically moving into a 
strange or dangerous-seeming environment, a biker bar, sex club or 
drug supermarket, though in practice, using the computer at home 
can lead to far more perilous consequences than any of these 
places. 
	It is useful to compare the process of accessing child porn on 
the Internet today, which is absolutely illegal, with the semi-
tolerated matter of purchasing a magazine of this sort in an urban 
bookstore in 1975. Although the bookstore patron was running 
little or no risk of official sanction, it was self-evident from the 
surroundings and the social context that the purchaser was in 
deviant territory, both physically and metaphorically. The store 
was likely in a "bad part of town," in a physical setting perhaps not 
far removed from active prostitution and drug use, and not 
somewhere where one would wish to be seen. In contrast, the 
modern computer user is, in every sense, at home with child 
pornography. Today, there appears to be no entry fee to the 
subculture, no risk or commitment, and that is perhaps the most 
dangerous delusion in the whole process.
	In many ways, too, child porn users are extrapolating from the 
socially commonplace. On the Internet, sexual material and adult 
pornography is extremely abundant, and generally tolerated, 
despite the continuing protests of conservative moralists. 
Pornography sites are well frequented, and little social stigma 
attaches to seeking such material through improper means, for 
instance by using computers in libraries or schools. Such misdeeds 
are often the subject of humor rather than serious condemnation, 
even when the users are young teenagers. A person accessing sex 
sites from a workplace computer might technically be violating 
corporate rules, but according to most views, is no more criminal 
than a colleague who takes home pens or paperclips. Many porn 
sites also "push the envelope" in terms of the strange and perverse 
practices which they depict, including sadomasochism, bestiality 
and toilet functions. Occasionally, too, amateur sites in which 
posters offer home-made pictures of wives and (adult) girlfriends 
will throw in a soft-core image of a pubescent girl, and the 
responses suggest that this action is seen only as mildly naughty, 
perhaps a form of tweaking authority. Seeking bizarre or shocking 
sexual images on the Internet does not of itself contradict deeply 
held social values, especially when - as it appears - the searching is 
done in private.

5.Dealers, traffickers, consumers and collectors of child porn 
may or may not be personally engaged in actual molestation. 
From the nature of the evidence, we are over-informed about 
those individuals who actually do molest, and who are 
probably not typical of the whole community. That point is not 
intended as a defense of the community, but is rather pointed 
at the best means of combating them.
	The actual relationship between child porn and child abuse is 
open to debate, no matter how firmly such a linkage has come to 
be viewed as a social orthodoxy. The difficulty is that solid data on 
the question are all but unobtainable, and official figures are highly 
suspect. To illustrate the problems with available evidence, let us 
assume that ninety percent of child porn consumers never become 
involved in abuse or molestation, and confine their illegal activities 
to merely viewing and collecting images. I have no idea what the 
actual figure is, but as I will suggest, nor does anybody else. These 
individuals are extremely unlikely to find their way into the 
criminal justice system, unless they attempt to trade images, or 
barring accidental finds on their hard drives. Conversely, the 
minority of users who are also molesters are far more likely to be 
arrested and prosecuted: they might try to seduce youngsters 
online, or else abduct or molest the children of friends or 
neighbors. For whatever reason, the police will probably 
apprehend them, and will discover child porn collections upon 
searching their belongings. In consequence, the ten percent of CP 
consumers who are also abusers will make up a sizable (and 
wholly disproportionate) majority of child porn arrests. This allows 
anti-porn activists to state, quite accurately, that "in the vast 
majority of child porn arrests, the individual involved is also found 
to be a molester:" listeners are encouraged to draw the 
(unwarranted) conclusion that child pornographers are necessarily 
abusers, and perhaps vice versa. In fact, the statistics establish no 
causal link between child porn materials and actual behavior, any 
more than the similar observation that most sex criminals also 
enjoy adult porn. The statement that "Most rapists watch porn 
videos" cannot be translated as "Most people who watch porn 
videos become rapists." Conceivably, perhaps ninety or ninety-five 
percent of child porn fans commit abuse, or perhaps the figure is 
closer to five or ten percent: the reality may just be unknowable.
	Official statistics (arrests and prosecutions) tell us mainly about 
those inept and seemingly atypical offenders who fail to take the 
obvious precautions, and who get caught. If for instance we wanted 
to study the child porn world from media or official sources, we 
might collect media reports of investigations and arrests of the sort 
which appear regularly in most advanced nations. Over the last few  
years, regional newspapers in the United States have reported 
hundreds of such stories, involving all sorts of individuals, 
including priests, politicians, police officers and executives, as 
well as ordinary citizens. Such stories mainly hit the headlines 
when they involve teachers or others working with youth, but 
celebrities are also newsworthy. But such instances represent only 
the tip of an iceberg. To quote one of the gurus of the electronic 
child porn world, "Godfather Corleone," 

Looking at the enormous amount of lolita-lovers out there, 
very, very few get arrested, the opposite of what most newbies 
[novices] seem to believe is the case, those that actually do get 
arrested, do not get arrested for downloading or uploading to 
abpep-t or visiting sites. Most people that get arrested do so for 
the following reasons: 1. they had to repair their PC when 
those repairing the PC discovered pics on the harddrive. 2. 
they have been trading thru e-mail. 3. they have been using 
ICQ / IRC [chat-lines] for lolita business.

	Both trading and chat-lines are so deadly because one is 
dealing with faceless individuals who often prove to be police 
officers masquerading either as fellow enthusiasts, or as underage 
girls: avoiding such chat facilities is a primary rule offered to 
novices in this underworld. Another participant on a child porn 
bulletin board, "Granpa Bob," claimed that recent arrests in the US 
could be categorized as follows: "It was basically 75% caught e-
mail trading with an LEA [law enforcement agency], 20% by 
computer repair shops, and 1% caught by either association with 
known traders or by do-gooders reporting them." It is very rare for 
individuals to be arrested for posting child porn, and virtually 
unheard of to be caught "just looking." 
	In the vast majority of cases which come to court, child 
pornographers are caught for another unrelated offense such as 
molestation, which leads to the serendipitous discovery of a 
collection of images. Though no case is wholly typical, a fairly 
representative example involves the man in Revere, Massachusetts, 
who was arrested after a young boy complained that he had been 
videotaped while having sex. When police searched the suspect's 
premises, they found four thousand computerized images of 
underage boys, as well as a hundred indecent videotapes. In a case 
in Northern California in 2000, child porn charges surfaced as an 
incidental element in a suspected murder investigation. Even 
where porn alone is the major issue at stake, offenders have almost 
gone out of their way to draw attention to themselves, for instance 
by viewing illegal materials on computers in public libraries! As 
long as enthusiasts maintain their interests solely within the virtual 
realm, observing pictures but not seeking to collect or apply the 
electronic fantasies in the world of lived action, they appear to be 
safe from detection. The virtual world genuinely is protected 
territory.
	By definition, studies of arrests or convictions only reveal the 
failures within the electronic child porn world. The cases which 
come to light fulfil a kind of Darwinian function, since they 
remove from the subculture those least fit to adapt and survive, and 
thus ensure the efficiency of those who remain. Nor can figures for 
arrests tell us much about the scale or the geography of electronic 
trafficking. If a hundred men were suddenly arrested for computer 
child porn offenses in Los Angeles, that would not necessarily 
show that that city was a particular center for this activity, but 
would rather indicate the interests and technical abilities of law 
enforcement agencies in that area. Perhaps such a campaign would 
further reveal that child pornographers in this region are singularly 
neglectful of security precautions. It is a truism, but criminal 
statistics measure official behavior, and nothing more.



6.The child porn underworld is absolutely multinational and 
global
	A glimpse at any of the boards will demonstrate the thoroughly 
globalized nature of the child pornography trade. The whole child 
porn underworld survives and flourishes by exploiting differences 
between the legal systems of different countries, between countries 
that have radically different attitudes to the whole area of 
childhood sexuality, or which observe marginal distinctions over 
the age of consent or the definitions of obscenity. Through the 
early 1980s, child pornography magazines were still legally and 
publicly accessible in the Netherlands, posing severe difficulties 
for police in other European nations, who fought hard against 
importation. Though hard-core child porn largely moved 
underground by the 1990s, several countries retained much more 
relaxed attitudes about child sexuality, which affected their views 
of what could legitimately be portrayed on the Web. While US law 
strictly prohibits all depictions of nude or suggestively clad 
children, European countries tend to be more liberal about showing 
simple nudity in a non-sexual context, as in a nudist camp. Naturist 
magazines like the German Jung und Frei and the French Jeune et 
Naturel circulated freely in Europe through the late 1990s. At least 
until recently, there was no reason why a Swedish server could not 
present a picture of a group of naked ten year old girls on a beach 
playing volleyball, say, though this picture would be strictly 
contraband when it was received on American soil. 
	In addition, many of the hard-core images circulated on the Net 
are the incidental products of "sex tourism." These portray white 
men having sex with young Asian or Latina girls, and are 
presumably souvenirs taken by sex tourists visiting Third World 
countries over the last decade or two: Thailand, Sri Lanka and 
Indonesia are the main Asian venues, while the Latin American 
pictures could be from any of a dozen countries. These pictures are 
distinguished from others of the genre by the fact that the men in 
question rarely attempt to conceal their faces, presumably secure in 
the knowledge that they were committing no crime under local 
laws: as we will see, the legal environment has since changed to 
make such neglect of security precautions very risky indeed.
	The boards are cosmopolitan. While the major sites were (as of 
2001) based in Japan, most users are from North America and 
Europe, and the main working languages are English and German. 
Specific debates may proceed in a variety of other languages, 
including Spanish, Swedish, Dutch, Portuguese, and indeed most 
of the European languages. There are exchanges in tongues like 
Turkish, Tagalog and Guarani, and other languages that I cannot 
identify, though I can at least recognize all the European 
languages. In a typical board exchange between, say, five or six 
individuals, two may be based in the US, two in Europe, one in 
Malaysia and one in Japan: there is no way for the casual observer 
to discover this. Indications might be provided by linguistic 
peculiarities, for example the use of English or Australian spelling 
or slang, such as "I'm off to the pub for a pint," "colour" for 
"color," or "knickers" for girls' underwear, while complainers are 
"whingers." Equally likely, participants in a quite different nation 
might be affecting these habits in order to divert attention from 
their real location, just as the often dreadful spelling and grammar 
found in messages may be a ruse to feign ignorance of English. 
	Deception of this kind is rampant on the boards. When listing 
survival tips for subculture members, one board participant 
included the advice, "Write in English in this board and never in 
your own mother language, if you have one. Don't speak about 
very personal things, which could help to identify you after 
collecting some more informations." The phrasing of the second 
sentence ("more informations") implies that the poster, "Thor," is 
not a native speaker, but he might well be an American or 
Canadian pretending to employ foreign usage. In another instance, 
"Rocky" quoted a story from a Detroit newspaper, and concluded, 
"Is any one heard of this news and which country this Detroit 
belong to?" I have no idea if this is genuine ignorance, or 
ingenious camouflage. "Darkstar" remarks, "don't forget the wise 
ones who have been here for years know all this, and be telling you 
they live in the UK or Belize, Canada, whilst they really in 
Cali[fornia]." 
	Similar caution is advised for those making pornographic 
images, since actual locations might well be revealed by incidental 
objects in the background. In one case, the maker of the notorious 
Marion series was detected because the setting was recognized as 
in Germany, leading federal police in that nation to circulate 
Marion's photograph. Responding to this arrest, one board member 
wrote "This case is a good example what not to do when posting. 
Many people look alike on a world wide basis, however when you 
show locations and identifiable clothing to verify identity you are 
asking for trouble." It would not be beyond the capacity of a 
pornographer to litter a room with magazines in some foreign 
language to conceal the fact that the shoot was actually occurring 
in, say, Illinois. The need for such cosmopolitanism is constantly 
stressed: when asked for the best means of securing a truly 
anonymous e-mail account, "Helper" wrote "Do not use sites like 
Hotmail. .... Best to go to some boolah-boolah country in Africa or 
Asia, or sites in the ".nu" neighborhood [Nauru]. Never your own 
country, as this only makes legal issues easier for LEA's." Darkstar 
advised, "Just use good proxies, make sure they have nym status, 
and operate out of territories like Tibet, China, Taiwan, Russia, 
Singapore, Mongolia etc. And alter the time domain in your 
computer, this is an ID parameter in conjunction with your isp IP 
that ties you down."   
	In addition, the typical posting of a porn website indicates a 
total neglect of frontiers: the site is posted by an American on a 
European server, announced on a Japanese server, with passwords 
posted at a site notionally based in Nauru or Tonga, while those 
downloading the pictures might be from fifty countries. One would 
need a thorough education in international law to understand the 
problems in legal jurisdiction which it poses: what crimes have 
been committed, where, and what agencies might conceivably be 
involved? And where exactly has this occurred, except in the 
emerging nation of Cyberia? Though the whole transaction 
originates on one computer in California, the complete story has 
literally unfolded across the globe.
	Moreover, outside western Europe, large areas of the world 
make virtually no pretense at combating underage sex or child 
pornography, and from the nature of the web, there need be only 
one bandit country to sabotage all international arrangements. In 
fact, there are dozens of such wayward states, which pay little 
attention to suppressing child pornography or, much more serious, 
child prostitution. Former Communist countries tend to be lax in 
this regard, and much material prohibited elsewhere stems quite 
freely from Russia, Poland and the Czech Republic. This trend 
reflects the extreme weakness of law enforcement in those 
societies, as well as a common desire to break away from 
Communist austerity.
	The upsurge of Russian and East European content has 
revolutionized the content of the child porn world, Nudist sites are 
prevalent, while many pictures emanating from Russia are 
unashamedly pornographic, and often extremely hard-core. They 
are immensely popular because they depict subjects in 
contemporary settings,  and thus form a dramatic contrast to much 
of the older materials, which largely depicted either contemporary 
Asian girls, or Euro-American children in conspicuously dated 
1970s settings. Also, and crucially for many fans, the subjects are 
white: a distaste or even loathing for non-white subject is a 
recurrent theme in exchanges. Some astute fraudsters exploit the 
Russian reputation for corruption by advertising child porn sites 
with Russian domain names, that is, the suffix "ru." Foreigners 
avidly flock to such sites believing they will thereby gain access to 
utterly uncensored materials, but they are often disappointed, and 
some ru sites are among the most notorious examples of bogus and 
deceptive advertising. They offer tantalizing samples, take money, 
but deliver nothing. In passing, it is one of the great ironies of 
modern history that the hammer and sickle emblem now often 
serves as a symbol of extreme hedonism, and provides a logo for 
the hardest of hard core web-sites. Czech sites are also popular. As 
an enthusiastic board participant wrote in 2000: "Czech Republic 
liberal! You can search, view and store pedo material without any 
penalty. For trading is maximum penalty one year."  This country 
is a major source of images of nude young boys, though as in 
Scandinavia, depicting sexual activity in such contexts is strictly 
taboo.  
	The child porn boards offer much advice on how to find 
countries where underage sex is readily available, and where child 
pornography can easily be obtained or, indeed, manufactured. The 
lax morality prevailing in former Communist nations is a common 
theme: 

 * RaNDoM > If you guys are tired of the US why don't you 
move out .... I've lived here in Siberia for the past year now 
and it's absolute Loli-Heaven! You can't go wrong with the 
former Soviet Union. Or if it's a little out of your budget then 
consider Mexico. For a few dollars (not pesos) the cops'll look 
the other way. It's where I used to live. 
* Cross > I hear Russia is becoming the epicenter of Loliland. 
Such information in general should help everybody in matters 
such as proxies, setting up sites, and many more. 
 * Greasey > in Russia be prepared to get mugged and maybe 
even killed. Russia has no law now, the Russian mafia runs the 
whole country   
 * TEST_ONE > if you have enough money, people at the 
[Moscow] Crime Dept. will drive you to the girls  

In answer to a question about one photo series, G-Man replied, 

Looks Rumanian to me... In some places there you can just go 
to an orphanage and give the adults some money (not a lot - 
many have not been paid their wages in years!) and you can 
have your way with some of the kids... The only thing is - the 
children have never even seen a bath and the beds have never 
been cleaned. They also shave the heads of the kids, so you'll 
have to do a bald girl.  

	After a decade of extreme laissez faire, some east European 
countries may finally be undergoing a moral reaction. Czech 
laissez-faire seems to be weakening as the country becomes ever 
more closely integrated into the European economic and political 
order, and there have been major crackdowns in recent months. 
Poland too has recently passed stringent anti-porn legislation, 
which if enforced would suppress most adult soft-core material, 
but it remains to be seen how far such action would extend to the 
Internet. Nor is there much likelihood that countries like Russia or 
Rumania will return to anything like Stalinist moral discipline in 
the foreseeable future, or will succeed in regulating their thriving 
organized crime enterprises.
	Despite the attention paid to the former Communist world and 
Japan, most "bandit" countries are however found in the Third 
World nations of Asia and Latin America, where westerners can 
readily find underage sex, as well as visual depictions of such 
activity. In coming years, these nations may also host the 
electronic servers central to the child porn world.
	In 1999, one correspondent asked the Maestro community, 
"Generally speaking - Where do you think the best place to travel 
to? Does anyone want to come along?" He received numerous 
replies, most highlighting the Third World:

* Ms Knickerworthy > Israel is a good place for pristine 
preteen arse... If you're not fussy about skin colour or AIDS 
then try Fiji, Bali, Jamaica, and similar Third World holes.  
 * jo > Contrary to popular belief the Philippines is still one of 
the best places to go but you have to be very cautious. Stay 
away from the tourist areas. The back streets of Manila are a 
good place to walk around mid afternoon. People are very 
friendly, and very poor. 
 * Pedro Phylle > As suggested above, stick with the poorer, 
undeveloped countries such as Latin America, Balkans or 
preferably S.E. Asia. In Bangkok, go to a red light district 
named Patpong.... Very lax laws and you don't have to worry 
about getting mugged or killed. To be really safe, talk to a 
cabbie and some of them will have a photo album of lovelies. 
Take your pick and he will deliver to your hotel room.  
* Soldo > By and large, Northern Europe including 
Scandinavia is very anti-pedo, Holland seems somewhat more 
tolerant than its neighbors. Southern Europe is more relaxed 
and a lot of the old Eastern European states don't have many 
laws in place - and if they do then don't enforce them because 
of lack of funds. Thailand seems to enforce laws only for the 
purpose of satisfying western govts, but if you're the one 
caught then look out. Most other S.E. Asian and Third world 
countries have far more pressing needs for their funds than 
stamping out loli material etc.  

The easy availability of child sex in many third world nations 
means that pornographic images are readily obtained, and 
continuing levels of poverty in these countries suggests that this 
problem will not be eliminated for many years.

7.The child porn underworld demonstrates extraordinarily 
high levels of technical capacity, probably far above that of 
most of the law enforcement agencies attempting to combat 
them. Often, investigations and convictions grow out of chance 
discoveries.
	Already by the late 1980s, pedophiles and child pornography 
enthusiasts were among the most experienced and knowledgeable 
members of the computerized communication world, so they were 
magnificently placed to benefit from the many technological leaps 
of the next few years. Operating websites was a vastly easier 
matter than the chore of running traditional BBS's, and offered the 
virtues (and the dangers) of a much wider audience. Instead of 
trading between a few dozen enthusiasts in a particular city or 
region, it was now feasible to gain instant access to materials 
emanating from other continents, and from countries with very 
different legal environments. Moreover, as computers themselves 
became faster, with far larger memories and faster processors, it 
became possible to store and transmit much more complex 
information, including large numbers of high-resolution color 
images, and movies. The child porn subculture on the Internet now 
began a boom that shows no sign of waning.
	There are today veterans whose careers in circulating electronic 
child porn span twenty years or more. These dinosaurs 
occasionally reminisce about the primitive ages: "Hey, I remember 
things before there was abpep-t. Zmodem 8088 PC, 20 Meg hard 
drive with RGB monitor, when there wasn't even jpeg's, only gif's. 
... Its just amazing how things have changed." Another veteran 
recalls,  "Twenty years ago I had a 300 baud modem, 16k memory 
and a 180k floppy drive. Didn't even consider a picture. My first 
HD cost about 500$US for 20megs in about 1984. It was about '87 
before I had pictures with a 1 meg video card and SVGA." "Master 
Blaster," a venerated name on the child porn boards, wrote in 2000 
that "I have been using it before most of you even knew the Net 
existed. I was online using a PDP-11 mainframe in 1980. We were 
hooked up to the **** intranet and in turn they were connected to 
the world via government and schools."  Attacking a rival who was 
trying to appropriate his nickname, "Zapper" declared in 2000 that 
"I have had this nic since 1987 and will continue to use it." We 
must be struck by the difficulty of tracking down people who have 
remained at liberty in such a dangerous  environment for so many 
years. Sending police officers on intensive two or three week 
courses to learn about the Internet is simply not going to equip 
investigators adequately to confront such accumulated expertise.

8. The attitudes expressed by the child porn elite to law 
enforcement are so contemptuous as to be sobering. What the 
dealers and collectors are really afraid of is private vigilantes, 
"militias" and white hat hackers.
	I quote a typical opinion from one of the elite figures within the 
CP underworld: 

In fact, extremely few persons actually get arrested and sent to 
jail, that is a myth really. There are thousands of vhs's out 
there, many from 1999, thousands of people present at this bbs 
[bulletin board] and millions of loli-lovers in various countries, 
yet you only see a couple of persons getting arrested, and the 
media writes about it like they have been busting Al Capone.

	Experienced members of the subculture have little but 
contempt for the capacities of "LEA," that is, law enforcement. In 
one exchange on the boards, a poster suggested an ingenious tactic 
which might in theory serve to entrap many child porn fans, and 
asked whether police were likely to deploy it. Responses were 
sarcastically dismissive:

*Godfather Corleone > I don't really think the LEA work that 
way as I'm sure they have better things to do which they know 
are more efficient. For instance, trying to catch newbies 
trading per e-mail or newbies visiting IRC etc. 
*Kidflash > LEA is not smart enough or have time to do such 
things.

9. Massive technical and legal obstacles prevent any easy 
solution to the undoubted problem posed by child porn. It is 
difficult to think of new laws that would make advances 
against the problem, which must involve close international 
collaboration.

	From the outset, we have to realize what goals are achievable, 
and the total elimination of electronic child porn simply may not 
be within the bounds of possibility. That does not mean that we 
have to learn to accept or live with the problem, and we might well 
achieve a massive reduction of production and availability, on the 
lines of what was accomplished in the 1980s. The great majority of 
child porn users are rational enough to be deterred, if the proper 
methods are applied. If we could achieve, say, a 90 or 95 percent 
reduction of availability, that would be a massive victory in its own 
right. The fact that some residual trade will continue indefinitely 
should not provide grounds for ever-increasing encroachments on 
the liberties of law-abiding "netizens." 
	To illustrate just how intractable the child porn problem is, let 
us imagine a means by which this material could be removed or 
destroyed entirely. Purely as a fantasy, let us suggest that the 
Internet should simply be prohibited, along with private 
communication over computer networks. Even if a hypothetical 
government did prohibit computer networks, it still would not 
eliminate child porn. Such a ban could only be enforced by 
computers in the hands of police or security forces, and many 
precedents indicate that these government employees would 
surreptitiously be sharing pornographic images. If there are 
computers, there will be computerized child pornography. 
	To take a marginally less outrageous solution, consider the 
experience of China, which like many authoritarian nations, faces a 
fundamental paradox in its attitudes to Internet technology. The 
Chinese want the massive economic benefits of the Net, and also 
realize the military implications of having a computer-literate 
populace. The ongoing cold war between the People's Republic 
and Taiwan is increasingly fought in the form of hacker attacks on 
each other's electronic installations. At the same time, the PRC's 
rulers are nervous about the democratic implications of the 
Internet, the ability of ordinary citizens to form political or cultural 
groupings online, and to circulate information critical of the state. 
In response to this dilemma, the Chinese government has ordained 
that all Internet traffic must pass through two portals, both run by 
the state: the authorities strictly limit what sites can be accessed, 
and keep detailed records of who is visiting what site. All ISPs and 
Internet users have to register with authorities. Anyone using 
encryption technology is required to notify a government agency 
of that fact. Other countries with comparably strict laws are 
Singapore, Saudi Arabia and Vietnam, and one state has taken the 
principle of control to its logical extent: "Burma [Myanmar] has 
taken the strongest measures by outlawing the use of the Internet 
and making ownership of an unregistered computer with 
networking capabilities illegal." 
	With such a model, much child pornography could indeed be 
kept off the Internet, and its aficionados rounded up or terrorized 
into inactivity. The difficulty is that a Western nation would find 
such a solution unacceptable from a myriad different perspectives, 
not least because it would hamstring the whole Internet, and 
introduce controls which most members of a democratic society 
would regard as utterly intolerable. But would it even work? China 
has an agelong tradition of technological innovation, while 
successive generations of Chinese dissidents over long centuries 
have devised ever more imaginative means of outwitting repressive 
governments, and distributing their own propaganda. Not 
surprisingly, the latest restrictions do not appear too burdensome in 
practice. Chinese computer users access forbidden sites by means 
of proxy servers, of which there are far too many to permit 
concerted government action. Users also make extensive use of 
Internet cafes rather than private machines, so even if authorities 
note the fact that an unregulated site has been accessed, the odds of 
detecting a specific individual are slight. The Chinese experience 
neatly illustrates the remark of Internet pioneer John Gilmore that 
"the Internet interprets censorship as damage and routes around it." 
Once again, too, we face the issue of "who guards the guards?" We 
may wonder what frivolous, decadent and obscene websites are 
regularly frequented by the guardians of electronic morality in 
socialist China.
	While a Chinese (or Burmese) solution is inconceivable in the 
West, it is scarcely less Orwellian than some of the ideas which 
have been floated, however speculatively. Given the nature of the 
child porn trade, the only policies which might conceivably 
attempt eradication would involve wide-ranging surveillance of 
Web traffic by official agencies. This effort might be carried out in 
a directed way under the approval of court warrants, or else 
randomly through general fishing expeditions undertaken against 
the sort of people thought likely to offend in this particular way. 
Yet as the Chinese example indicates, even such an intolerable set 
of burdens probably would not eliminate the underlying issue.
	If the traffic cannot altogether be eliminated, the next question 
is how far it can be detected and combated, with a view to 
suppressing the bulk of the trade, and ending the present easy 
availability of this material. And how far can this be achieved 
without destroying the privacy rights of  law-abiding Net users? 
When considering this, it is useful to recall just how far the Net has 
already eroded privacy, and the resentment which such intrusions 
have already caused. In reaction to current threats, legislators have 
come under pressure to enact safeguards from electronic snooping, 
at exactly the same time that the perceived need to combat 
cybercrime encourages the same law-makers to enhance official 
surveillance powers. The result is a strange and fast-moving 
struggle of priorities, between what might be the irreconcilable 
values of individual privacy and public security. 
	The biggest single problem facing police is simply recognizing 
and understanding the nature of the child porn world on the Net. 
Despite all the enforcement efforts of recent years, it is still 
remarkably easy for any reasonably discreet person to pursue this 
highly illegal conduct indefinitely, so long as obvious traps are 
avoided. This does not mean that police have been lackadaisical or 
incompetent, still less that their hands have been tied by legislators. 
Hitherto, law enforcement agencies, and their political masters, 
have just had a very poor idea of the organization and mechanisms 
of the child porn subculture, and above all, its critical institutions, 
like the newsgroups and bulletin boards. To take a glaring 
example, given the public loathing of child porn and the support 
that could be mobilized against it, it is incredible that virtually 
nobody outside the subculture itself ever heard of abpep-t: the 
name barely appears in searches of media databases. 
	In observing this neglect, we might think of an analogy with 
illegal drugs, in which there is both a supply side (manufacturers 
and importers) and a demand side (street-level users). Looking at 
current efforts against child porn, it is almost as if anti-drug 
policing was solely confined to arresting users and addicts, while 
ignoring organized rings and suppliers. In this fantasy world, no 
attention would be given to tracing the origin of supplies of (say) 
cocaine, and the assumption would be that the substance "just 
grew", or perhaps appeared naturally in neighborhood gardens. 
Police would remain blissfully unaware of potent names like 
"Colombia." Such an approach might result in numerous arrests 
and convictions, but it could never make a dent in illicit drug 
supplies: nor does a pure demand-side approach work for child 
porn. This needs stressing because the occasional attempts to 
outline anti-child porn strategies concentrate entirely on 
intimidating the ordinary users. Filling the prisons with child porn 
users is as likely to be ineffective as the zero-tolerance drug 
strategy which has incarcerated hundreds of thousands of small 
time consumers, combining minimal deterrence with maximum 
social devastation.
	All too often, "get tough" campaigns garner rich publicity by 
appearing to be striking at the problem enthusiastically, but the 
effects are minimal, if not counterproductive. Furthermore, the 
horror inspired by child pornography naturally inspires politicians 
to try and "do something," but the "something" in question has 
nothing to do with the issue at hand. Though child porn is 
harrowing enough in its own right, the massive reaction to web-
based obscenity by politicians and media undoubtedly reflects a 
sense of loss of control in the face of Internet technology, 
augmented by a recognition of the fragility of international 
boundaries and laws. So deep is this unfocused concern that it all 
too readily justifies legal efforts directed not against the genuinely 
harmful area of child pornography, but against far milder forms of 
adult-themed indecency, of explicit images, and even language. 
Hence the instant appeal of successive high-octane campaigns 
against "cyberporn," none of which would have the slightest 
impact on the real world of child pornography. When misdirected 
laws fail to suppress child porn, the predictable result is to pass 
still more laws of the same hue, and so the cycle continues. 
Agreeing unhesitatingly that child porn is an unqualified evil 
should not mean acceding to every measure proposed, however 
tenuously, under an "anti-child porn" rubric. When passing laws, it 
is useful to recall the opening words of the Hippocratic Oath: first, 
to do no harm.
	When we consider the thriving kiddie porn culture on the 
Internet, we might recall the Maoist dictum that guerrillas move 
among the people like fish swim in the sea. The analogy holds to 
the extent that child pornographers do indeed travel the Internet 
like the proverbial swimming fish, and there is no easy way to 
catch the fish without draining or poisoning the entire sea. We 
have to find means of killing or crippling the subculture without 
destroying the Internet, with which so much good can be 
accomplished.

9. On the positive side, some substantial victories have been 
achieved. 
	Comparing the situation today with that in 2000, I am struck by 
how many of the easily accessible semi-public sites have been 
closed down, usually through the semi-legal actions of vigilantes 
and white hat hackers, rather than by law enforcement agencies 
themselves. For instance, we no longer have the proliferation of 
outrageous sites that used to disgrace yahoo and MSN's groups, 
and that provided portals to very hard core material indeed. The 
bulletin boards have also been forced to conceal themselves behind 
passwords and high firewalls. However tempted we might be to 
despair, progress really has been made.

	MR. WHITFIELD.  Well, I want to thank all of you for your 
testimony.  We appreciate it very much.  Dr. Jenkins, let me ask 
you a question.  I notice you are a Professor of History and 
Religious Studies at Penn State, so how was it that you became 
involved in this particular issue?
	DR. JENKINS.  It is, as they say, a long story.  I had been 
working for a long while on the history of child abuse and child 
molestation, and in one book I wrote in 1998 I discuss the topic of 
child porn on the Internet from the context of the congressional 
hearings held in the mid-90s.  And at that time I believed that it 
was largely a myth, if you like, an urban legend.  When I found 
that it was not, in fact, I stumbled across this material while trying 
to write another book, I felt it incumbent on me to counteract the 
misleading impression given in my previous book.  So it is 
basically the historian in me who is speaking.  It is a very fair 
question you ask.
	MR. WHITFIELD.  Recently I was talking to someone and they 
were talking that in many countries around the world, of course it 
is not even a violation of the country's laws for child pornography 
to be shown or displayed, and they were talking about they were 
having a meeting with some members of the Russian Duma, and 
they were trying to introduce legislation to make it illegal for child 
pornography.  And the members of the Duma told them, they said, 
we are going to introduce this legislation in Russia, but that is not 
going to come close to solving the problem because in America is 
where most of the demand lies.  The citizens of America are the 
ones that are buying this, that are paying for these sites, that is 
where the consumption is taking place.
	Now all of you on this panel have been involved in this issue 
longer than any of us have, but would you say that that 
characterization that I just talked about is actually true?
	DR. JENKINS.  May I speak to that?
	MR. WHITFIELD.  Yes.
	DR. JENKINS.  I would say it is really unknowable because by 
definition we do not know how many images are produced or 
circulated.  All we see is the result of law enforcement.  If, for 
example, law enforcement in one company works very hard 
against enforcement then that is where we will have the most 
evidence of consumption.  If you want to see the market then you 
have to go to these boards which appear to me to describe a 
consumption certainly across the western world but also in Japan, 
in a very rapidly growing world now across much of Asia.  This is 
a truly global market.  It might be that what we see in America is 
just a function of law enforcement findings.
	MR. WHITFIELD.  Right.  Okay.  Would anyone else want to 
make a comment on that at all?
	MR. EICHENWALD.  In the course of what I saw, again my 
information is far from scientific, but there was clearly a very 
heavy American element among the customer base.  For example, 
on the Playtoy site you had 6,000 members.  Many of them put in 
an identifier of what country they were from.  There were a large 
number of Americans.  In the discussion sites, it occasionally 
would come up about what country people lived in.  What was 
interesting to me is the number of people who were Americans but 
not all of them lived in America.  Some had relocated to Mexico 
where they thought the laws were more favorable.
	And so there is clearly a large American element to the 
demand.  How much of that in terms of proportions, Dr. Jenkins is 
right, it is unknowable.
	MR. WHITFIELD.  Dr. Salter, you have contributed so much in 
this area and have written a number of books, and I did see a 
portion of the video that you sent down here of your interview with 
the inmate.  I must say he was quite an appealing fellow.  I mean 
his personality seemed to be warm and genuine, and he seemed to 
really be interested and responding to your questions providing 
information to parents about how they can help on this.  In your 
experience, these pedophiles, generally speaking, are they that 
ingratiating?  Do they have that kind of a personality, generally 
speaking?
	DR. SALTER.  Well, the most successful of them are.  If you are 
going to last as a pedophile, if you are going to get ongoing access 
to multiple children for long periods of time, then you have to be 
that charming and that likeable and that ingratiating, and the ones 
who aren't just get caught much sooner.
	MR. WHITFIELD.  Now in your testimony, despite your great 
leadership on this issue, I certainly get the sense that you are sort 
of pessimistic about Congress or anyone else really being able to 
deal effectively with this problem.  Am I accurately stating--
	DR. SALTER.  No, not at all.
	MR. WHITFIELD.  Okay.
	DR. SALTER.  Not at all.  My comments were only that I fear 
we can't leave this to parents.
	MR. WHITFIELD.  Okay.
	DR. SALTER.  And the reason is that parents are very naive 
about this, and, frankly, they are very easily taken in.  I have 
known of kids who are going into chat rooms with strangers and 
warned their parents about it and been told, and they never did 
anything about it.  They really believed there was no danger at all.  
No, I think it is going to take Congress getting involved in this.
	MR. WHITFIELD.  Do you have any specific suggestions? If you 
were a Member of Congress, are there any specific things that you 
would be looking at or trying to do?
	DR. SALTER.  I don't have a complete answer to this, and I 
wouldn't again pretend that I do.  I would say anything that we can 
do to support the cutting off the money by the credit card 
companies.  Anything we can do to support that would be valuable 
because at the end of the day if we could stop the money, we could 
stop a lot of it.
	MR. WHITFIELD.  We have heard a lot of that testimony, and I 
appreciate your pointing that out.  Now, Dr. Hernandez, it is my 
understanding in the Federal prison system that your program is 
the only one that is in existence that deals with this issue, is that 
correct?
	DR. HERNANDEZ.  Yes, sir.
	MR. WHITFIELD.  And it is my understanding there are 112 
beds so out of a population of 12,000 Federal prisoners that are 
there because of this issue, you can treat 112 at a time, is that 
correct?
	DR. HERNANDEZ.  That is correct.
	MR. WHITFIELD.  Now you said that it is a voluntary program.  
I am assuming that is because they are the only ones you can have 
any hope of really helping them deal with their issue?
	DR. HERNANDEZ.  The issue of voluntary participation 
certainly is an important one.  It enhances our ability to treat the 
offenders.  There are other treatment models that have a different 
approach to treatment, a required approach.  However, we don't 
have a policy that requires these offenders to participate in 
treatment while incarcerated.
	MR. WHITFIELD.  Have you been able to measure how effective 
your program is and how long has it been in existence, and could 
you give some additional information?
	DR. HERNANDEZ.  The program has been in existence since 
1990, and the Office of Research and Evaluation has undertaken a 
rather big outcome study.  It will take several years to complete 
that study, and the reason for that is because in order to measure 
recidivism these offenders have to recidivate.  They have to be out 
in the community and we need to compare those who went through 
the treatment program with those who didn't go through the 
treatment program, but did have the opportunity to enter such 
treatment.  Those analyses have not been conducted so we really 
cannot tell you with any degree of scientific certainty whether the 
treatment program works.
	MR. WHITFIELD.  So we just haven't time to get an accurate 
reading at this point?
	DR. HERNANDEZ.  Yes, sir.
	MR. WHITFIELD.  Dr. Salter, do you believe that there is a link 
between viewing Internet child pornography and committing 
contact sex offenses against children?
	DR. SALTER.  Certainly.  As Dr. Hernandez pointed out, I 
believe they have 80 percent of their child porn had contact 
offenses.  I have seen a recent study where it was 24 percent but 
everybody acknowledges, I think, that a considerable percentage of 
child pornographers had known contact offenses in the past, and 
that is just what we know about.  It put the chances of getting 
caught for any sexual offense at 3 percent so for every offender 
who gets caught they have typically many more offenses they 
didn't get caught on.
	MR. WHITFIELD.  Well, my time has expired, so I recognize 
Mr. Stupak.
	MR. STUPAK.  Dr. Salter, if I may, the last question the 
Chairman just asked you was about if people view online 
pornography then is there a likelihood to have sexual contact, and I 
believe you said your answer was yes?
	DR. SALTER.  Yes.
	MR. STUPAK.  Okay.  What is different then if people view 
Hustler, Playboy, things like that, is there a greater likelihood then 
they are going to have improper sexual contact?
	DR. SALTER.  With children?
	MR. STUPAK.  Or with other individuals.
	DR. SALTER.  Not to my knowledge.  It looks to me from 
reading the porn literature that there are certain kinds of adult porn 
that are connected with sexual offenses and it is mostly positive 
outcome rates, porn that suggests women want violence, that have 
a scene that starts with a rape and ends up with the woman smiling.  
And that certainly has a negative impact on people.  But the sort of 
people who view adult porn are certainly not always interested in 
children.  Very, very few are.  And it is child porn that is directly 
tied to assaults on children.
	MR. STUPAK.  What I am trying to do, if anyone wants to jump 
in, I guess I am trying to say at what point do we sort of cross the 
line, at what point do we leave where there may be viewing for if 
you want to use the words, I am struggling here a little bit, maybe 
personal satisfaction or pleasure to criminal activity such as 
assaultive behavior, I guess would be the best way to say it.  I find 
your testimony interesting, but what I am trying to find is there a 
point, do we start out on pornography, just looking at sites, and 
then suddenly you go further and further?  At what point do we 
cross that threshold where suddenly what may be personal 
observation for whatever pleasure you see in it moves to the point 
of being criminal activity?  Can anyone help me with that?  We got 
a criminologist, we got a psychologist, we got everybody.
	DR. HERNANDEZ.  Well, I will take a stab at it.  The answer to 
your very direct question is we really don't know.  The body of 
scientific knowledge is just not there.  We are barely scratching the 
surface.  We are developing some hypothesis.  My observations 
have been that many of these Internet-related sexual offenders do 
have a fair amount of contact sexual criminality.  These same 
observations which I have to qualify I have made in a specific 
context that doesn't really generalize to all sex offenders out there 
or all Internet sex offenders.  Nonetheless, these observations tell 
me that while child pornography images do have an influence on 
the user that the reason for them seeking child pornography 
predated their looking for these images.
	MR. STUPAK.  Sure.  Mr. Eichenwald, you did some interesting 
articles and I want to go to one in particular.  I believe it was an 
August 21 article.  Let me just quote a little bit from it and maybe 
you can add a little bit to this.  I am reading your article and it says 
"some pedophiles revealed that they gain access to children 
through their own families."  You were quoting one person, "I 
have a daughter and I have never been attracted to her.  A man 
with a screen name of John Boy wrote, but he added I did find her 
friends very attractive.  Pedophiles chafe at suggestions that such 
comments reflect risks to minors.  They point out correctly that 
family members and friends, not strangers, are the most frequent 
predators of child sexual abuse.  They never note, however, that 
the minors mentioned in their online discussions are most 
frequently those they know well like relatives and children of 
friends."
I guess maybe what I am trying to get to is back to the question 
of where does it go to the point where it becomes criminal, and I 
guess probably the answer is with each individual once they cross 
that threshold.  Can you help us at all with this?  I found the 
articles pretty interesting reading for this hearing today.
	MR. EICHENWALD.  Well, I would always caution that 
everybody here has statistical analysis, everybody here has 
scientific analysis.  Mine is purely anecdotal.  But I would say that 
in the course of what I saw while watching these conversations you 
cannot overstate the degree of the obsession with children.  These 
are people who, as they describe it, their entire lives are built 
around being around children, getting near children, watching 
children, and seeing children.  The result of that is you are almost 
asking the question does child pornography lead to sexual assault, 
and again I have no statistics to back it up.
	Given what I saw, it just seemed like this lunch lead to dinner.  
This is something they want.  They want children.  They want 
children in sexualized ways.  They talk about it incessively.  They 
view events that most of us would see as irrelevant and 
unimportant, nothing as being hugely important sexual events.  
And so again I think that what we are seeing are outgrowths of the 
same predilection that the desire for child pornography and the 
desire for contact offenses are growing from a pre-existing 
problems and that those are both just two sides of the same coin.
	MR. STUPAK.  Dr. Hernandez, didn't you have some study or 
your studies or research has shown like 76 to 80 percent of those 
who possess child pornography and those who actually have sexual 
contact with children is like 76 to 80 percent, is that right?  Did I 
summarize that right?
	DR. HERNANDEZ.  That is correct, 80 to 85 percent.
	MR. STUPAK.  Okay.  Are you familiar then with Joseph 
Bushman from the Dutch Ministry of Justice where he did some 
polygraph testing?   Are you familiar with that study at all?
	DR. HERNANDEZ.  I am not familiar.
	MR. STUPAK.  He interviewed apparently and was in this 
operation Falcon or RegPay, as we called it last week when we had 
the financials in there.  According to some testimony there or some 
things we had read, he found results somewhat similar to yours that 
all the subjects that were caught subscribing to online child porn 
sites had in fact some sexual contact with children.  So I guess this 
would support your conclusions.  I am just grasping here.  I am 
trying, as I think we all have, no one likes holding these hearings.  
We are trying to get a profile of the predator and that is the subject 
of this hearing.  We have heard you really can't profile from Dr. 
Jenkins, and when you read Mr. Eichenwald's articles, they are 
almost like obsessed or become so obsessed with children that they 
acted out to the next extent and where do you get that?  When do 
they cross that line, I guess is what I am drawing from if anyone 
can give us--answer that million dollar question.  Dr. Baxter.
	DR. BAXTER.  We also wrestle with the same desire for 
knowledge and that is why we have a lot of research hypothesis.  
While we know what Dr. Hernandez has found in the Federal 
Bureau of Prisons in a treatment group at Butner, we also 
understand the need to do further research to be able to generalize 
to other Federal inmates much less State inmates or those who may 
have not been apprehended or convicted yet.  And so part of what 
we are in the planning stages of is for the research in our agency to 
find out whether or not Dr. Hernandez's findings at Butner are 
generalizable to the rest of our prison population.  We too have 
many questions about what is the sequence of development of 
criminal behavior.  How much of it may be triggered by Internet 
pornography exposure?  Did the predilection exist on the part of 
the individual before they were exposed to the Internet?  Does the 
Internet somehow foster the development in a different way of 
those kinds of behaviors?
	MR. STUPAK.  Dr. Salter, it looked like you were trying to say 
something there or wanted to jump in.
	DR. SALTER.  If I am understanding your question, I do believe 
there are men out there who are sexually attracted to children and 
who don't act on it.  However, I don't think you are going to find 
them very often among the people watching child porn.  And the 
reason I say this is I think that people who just know that they have 
an attraction to kids and are horrified by it are actively resisting it.  
They don't get involved in child porn because they think it is 
immoral.  Once you get to the group who are actually seeking out 
child porn where they know there are real children being exploited, 
you have already crossed the line.
	MR. STUPAK.  Thank you.  Thank you to all of our witnesses.
	MR. WHITFIELD.  Chairman Barton is recognized for 10 
minutes.
	CHAIRMAN BARTON.  Thank you.  Is it a true statement that the 
availability of child pornography disseminated by the Internet has 
caused an increase in actual pedophilic behavior?  Does the 
availability increase the incidents of the transgression?  Anybody?
	DR. JENKINS.  In my sense, it is simply not knowable.  We do 
not know how much behavior is underway.  We only know what 
might lead to arrest or imprisonment so it really is not knowable.  I 
would also add one thing.  Don't forget in some ways child porn 
material was very freely available in this country in the 1970s in 
the form of magazines.  It was freely available in any large city, so 
this is not a new phenomenon but I am afraid the answer to your 
question is we don't know and we can't know.
	CHAIRMAN BARTON.  Well, let me reverse the question.  If we 
are successful in limiting the availability, the second panel are 
Web providers, domain name providers, and one of my goals is to 
make it much more difficult to get this garbage available on the 
Internet.  If we are successful in that, if we make it much more 
difficult and limit the availability, does that help with the 
pedophile population reduce the numbers of pedophiles and reduce 
their transgressions against children?
	DR. JENKINS.  I would suggest that it helps in two ways.  One is 
it helps the kind of people who Dr. Salter is describing who might 
feel these urges or these desires and they face less provocation to 
move to that further stage.  The other one is if there is less material 
then there is less of a market.  There is less encouragement for 
people to go out and molest, commit offenses against children for 
the sake of this commercial market so it protects children 
immediately in that way.  So this stuff can never be eliminated, I 
don't think, but it can be massively reduced and that is where I 
think the work this committee is doing is so important.  Yes, I 
think it can do a lot of good.
	CHAIRMAN BARTON.  Dr. Salter, if we are successful in limiting 
the availability, and through our window nationally and to some 
extent internationally create a peer pressure in the adult population 
that this is just bad or you just don't do bad things.  Does 
somebody who is a latent child pedophile, can we actually create 
an environment in which just through lack of availability and peer 
pressure that the action itself is wrong prevent a potential 
pedophile from acting on their impulses?
	DR. SALTER.  Yes.  I am obviously not saying that you are 
going to stop everybody because many people don't come at child 
molestation to this point.  They just come directly to child 
molestation.  But are there people on the edge who have some 
interest and who get further sensitized by child porn?  Sure, I 
believe that.  And also the fact that they can find it so easily, the 
fact that they don't have to go anywhere, they don't have to order 
anything, and they don't have to buy anything.  It is in their living 
rooms.  Is that a knock for people on the edge?  Yes.  I also would 
like to second Dr. Jenkins' comments.  There are untold numbers 
of children being involved in the manufacture of porn.  By cutting 
down on the child porn you will immediately reduce the number of 
victims.
	CHAIRMAN BARTON.  I am going to reserve my questions for 
the second panel, Mr. Whitfield, but it is a goal of this 
investigation, we want to increase public awareness and that is 
where Mr. Eichenwald has done such a good job helping us.  But 
we also want to create pressure in the technology community to 
make it much more difficult and maybe impossible to get these 
images available.  Then whatever steps we need to take 
legislatively to increase Federal penalties on this type of behavior, 
so we actually have three different steps we are trying to approach.  
Again, I want to thank you and Mr. Stupak for your personal 
involvement in this.  It is beginning to pay dividends.  I think we 
are making a difference in the country on this.
	MR. STUPAK.  Mr. Chairman, would you yield to me?
	CHAIRMAN BARTON.  Sure.
	MR. STUPAK.  I would like to ask a follow-up question or two.  
And I think the work the committee has been doing in this area has 
been excellent.  I think we have helped open up a lot of eyes.  In 
the 1970s as was testified earlier that child pornography, because 
customs was involved, we pretty much cracked down on it and it 
moved to the Internet, so it leads me to two questions.  What 
percentage of our society has tendency to be a pedophile or may be 
a pedophile, and then if we take away the Internet access then 
where do these pedophiles go whether it is for commercial market 
or whether it is for the physical contact.  So is there a set like a 
percentage, 1 percent, 2 percent, 3 percent, whatever it might be?  
If so, if you dry up the mail like we did in the 70s and the Internet 
is then gone, where do they go, where do they act out?  If the 
obsession is so great, they are going to have to find it somewhere.  
Any thoughts, anyone?
	DR. SALTER.  The incidents of people, men, in the society who 
are interested in children has been estimated to be as high as 20 
percent.  There was a report by John Breer, among others, where 
they asked people if you could get away with it, if there were no 
penalties or whatever, would you have sex with a child or do you 
have any interest in children.  So it has been estimated to be that 
high.  In one study that was done where they had some very 
complicated ways of guaranteeing confidentiality, 10 percent of 
the population admitted to having at some point molested a child.
	Now we don't know how many of those were adolescents or 
even younger and one-time event.  I think it is safe to say that there 
is a significant percentage of the population that has some interest 
in children.  I do not believe by shutting down child porn on the 
Internet there would be any increase in child pornography.  I think 
child pornography increases the arousal to kids and is throwing 
gasoline on the fire.  I have certainly known of offenders who had 
an interest in kids and who did not act on it because they did not 
have the social skills.  They were too shy, they were too unskilled 
to get access to those kids.
	So I think when you shut down opportunities for one reason or 
another you don't end up with more offending overall.  You end up 
with less offending.
	MR. STUPAK.  What is the next avenue of offensive behavior 
then?  I guess that is what I am trying to stay one step ahead of the 
game.  I know that is not possible but I guess I am just trying to 
think this thing through.  If you read the articles in the New York 
Times and others these folks are very ingenious in the way they 
work it, in the way they manipulate it, not just manipulate the 
Internet and hide behind it but also manipulate children and other 
people, so they are going to go somewhere.  Where would that be?  
Go ahead, Mr. Eichenwald.
	MR. EICHENWALD.  What has changed and what has changed 
dramatically is that the socially awkward pedophile now has many, 
many people to give him advice on exactly what to do.  I saw a 
large discussion among a bunch of pedophiles with one who was 
trying to gain the attention of a young boy, and he was going to 
buy him I think it was a $2,000 computer.  And everyone waved 
the red flag.  Don't do that, don't go that far because immediately 
that will attract attention to you.  The parents will freak out instead.  
Bring it down.  Maybe have him work for it.  It was all this 
discussion on that lines.
	What I found so disturbing in these discussions with the 
number of times there were people who were saying I have been in 
jail for molesting a child, and here they are with full Internet 
access talking with other pedophiles, getting reinforced constantly 
that their desires are fine, that what they do is acceptable.  It is 
good for children.  That there is something wrong with society, 
there is nothing wrong with them.  And as I watched that, it just 
was so strong, so clear to me that anyone who has this predilection 
and who is constantly getting bombarded with the message that 
what you want to do is good and beneficial is probably going to act 
again.
	And it was disturbing to me to recognize that here are people 
who had already been in the legal system who are now essentially 
being encouraged to commit another crime.  And so if you take 
away the child porn because magically wave a magic wand and it 
is gone tomorrow, what you still have is this justification 
community, this community of individuals who are day in and day 
out supporting each other, encouraging each other, and telling each 
other that the world is very different from what it actually is.
	MR. STUPAK.  Thank you.  And, thank you, Mr. Chairman, for 
yielding.
	CHAIRMAN BARTON.  Yield back.
	MR. WHITFIELD.  Mr. Ferguson is recognized for 10 minutes.
	MR. FERGUSON.  It is tough to know where to begin.  Every 
one of these hearings, you find we have had witnesses as we have 
with you today that would be--spend less than hours and hours and 
hours with each one of you talking through all these issues seems 
to be shortchanging the topic, but we very much appreciate and 
value the insights that you have been sharing with us, all of you.  I 
have several questions for Mr. Eichenwald because I have 
reviewed this information that you have shared with us, that you 
have submitted from some of what you have seen online.
	In your testimony you discussed how you observed these 
conversations of these pedophiles in these, I don't know if it is a 
chat room or if it is some--
	MR. EICHENWALD.  It is multiple, sort of multiple systems.
	MR. FERGUSON.  They are having on these online forums.  
They are talking with one another as you have been describing.  
How easy is it to access these?  Were you able to just go in and 
start watching or listening?  You didn't participate but--
	MR. EICHENWALD.  There are certain forums that are password 
protected.  I didn't go into any of those.  But the ones that I found, 
there are multiple levels.  There is something called Internet relay 
chat, which is basically a text based system that exists sort of 
underneath the World Wide Web.  And you can set up any room 
on any topic.  People can come in and have a discussion, leave and 
the room disappears.
	MR. FERGUSON.  Do they ever talk about what we are doing 
here?
	MR. EICHENWALD.  Oh, constantly.
	MR. FERGUSON.  These hearings?
	MR. EICHENWALD.  They talk about me.  They talk about this 
committee.  They talk about Oprah Winfrey.  They talk about 
anyone who is in fact dealing with this issue and trying to address 
the danger to children from pedophiles.  They have a name for all 
of us.  We are called child haters.  And in their view, we are child 
haters because we are trying to do something to prevent the 
molestation of children.  And, again, when I talk about the view of 
the world inside these communication systems is very different 
from what you would expect to hear in a normal conversation.  It is 
very different.  Up is down.  Black is white.
	And there are so many vehicles available from the IRC to the 
bulletin boards to Web-based forum postings to Web-based live 
conversations.  And I watched conversations on all of these.
	MR. FERGUSON.  You have attached an example of this, this 
conversation going back and forth between various people 
including someone named Tanks or Tanex.
	MR. EICHENWALD.  Tanks is a bogus e-mail address.  It is an 
anonymizer.  It is not somebody whose real name.  And Tanks 
posted on a bulletin board, there was a person who goes around the 
bulletin boards as vigilante trying to identify people, trying to take 
things down, and he was saying to that person you can't stop us, 
and look what I can do, and he basically laid out chapter and verse 
of how the high end child porn traders have set up a mechanism 
under which they are able to trade child porn with a fairly good 
belief that they will not be detected.
	MR. FERGUSON.  What is B&C?
	MR. EICHENWALD.  B&C is the name of the person who has 
been doing--it is Bob and Carol.  It is a screen name of the person 
who has been going around the bulletin board making trouble for 
the pedophiles.
	MR. FERGUSON.  B&C is the vigilante?
	MR. EICHENWALD.  Yes.  As I understand it, yes.  And so he is 
saying basically do all you want, you can't stop us.
	MR. FERGUSON.  Is this something you just sort of stumbled 
across as you were observing one of these conversations?
	MR. EICHENWALD.  Yes.  What happened.  Actually, the reason 
you have that posting in that format, I came across the posting after 
it went up.  It had an automatic delete function on it that I didn't 
realize was there, and it disappeared after 3 days.  So somebody 
who replied to it accidentally had copied the posting into his 
posting, and so that is why what you have is a reply followed by 
the original posting.  That individual lays out a scenario under 
which--it is very detailed--under which he is able to obtain child 
porn on a daily basis without anyone knowing anything about it.
	MR. FERGUSON.  Now on the first page of this though in this 
anonymizer name or address, it says, and the quote is "for every 
hapless idiot that gets caught with KP--", kiddie porn, "--because 
they were too stupid to encrypt there are likely hundreds still living 
their KP lives that will never be caught."  And then on page 2 this 
same person goes on to discuss how much better and safer it is for 
pedophiles to trade images on a peer-to-peer network.  Is this 
directive, this sort of encouragement to go using peer-to-peer 
networks, is this a theme, is this something that is common in these 
conversations based on your observations?  Is this echoed in other 
chat rooms?
	MR. EICHENWALD.  The sense of how to get away with it is 
constantly discussed.  Actually there was a reference in the story 
when a number of technology companies came in and said we are 
putting together a new technology that will help us track child porn 
and identify it.  Literally that day of that announcement, as the 
announcement is coming out of the committee, I was watching the 
conversations online, and it was here is how we beat it.  Before the 
technology was up and running, they already knew how to beat it.
	This was the most--the posting that you are looking at now is a 
description of the most sophisticated mechanism of trading child 
porn and is clearly the mechanism that this community is moving 
towards.  And the reason I have included that in my testimony is I 
think that is important for the committee to understand, not just 
what has been happening but also where this world is moving to.
	MR. FERGUSON.  At the end of this e-mail exchange, this 
conversation, there is a listing that has some file names, some of 
them with very graphic names about the exploitation of children, 
most of them it seems.  Very briefly, what is your understanding?  
What are these?
	MR. EICHENWALD.  Those are videos.
	MR. FERGUSON.  They are videos.  So at the end of this 
conversation they just attached a bunch of--
	MR. EICHENWALD.  What he was doing was saying look how 
much child porn I have been able to obtain in the last number of 
months by using this system, and he has 100 gigabytes of child 
porn.  Now that directory--he wasn't posting the videos 
themselves.  He was posting his directory listing.  And so from his 
directory listing, which goes on and on and on, I believe, for like 
20 pages, you can see in more graphic terms than any of us could 
ever describe not only the magnitude of what they have, but also 
the ages of the children involved, and what those children are 
being subjected to.  And that is what is going on right now in the 
peer-to-peer networks.
	MR. FERGUSON.  Can you talk about these modeling sites for a 
second?  You talked about how you learned about this child 
modeling sites while you were observing these pedophile chat 
rooms or where they are talking.  What are these folks saying 
about the child modeling sites?
	MR. EICHENWALD.  Well, actually at the point when I first 
found it, I didn't know what modeling sites were, and somebody 
had posted something to Playtoy Mansion.  Now it took me 
actually until after the story was published and somebody pointed 
out that that was a play on the words Playboy Mansion.  But at the 
time I didn't know what it was, and I had followed links from 
actually that conversation site.  That is how I found the radio 
station.  That is how I found the pod cast.  That is actually how I 
found the jewelry store.  And I clicked on Playtoy Mansion and it 
took me to another forum where people were--it is basically--there 
is a format for the forum.  I recognized it immediately as that 
format.
	And there were links on that forum to other sites, and when I 
clicked on it, it very rapidly became clear that this was a forum for 
a collection of child porn sites.
	MR. FERGUSON.  I realize I am asking your opinion on this but 
in your opinion are these modeling sites a gateway to the rest of 
the child pornography world, this criminal world?
	MR. EICHENWALD.  The modeling sites that I saw, again, as 
soon as I realized what I was looking at, I had to stop and call law 
enforcement, but what I saw was ungodly.  I have had a lot of 
sleepless nights over the past year and a half when there have been 
times I have had to adapt to new things to my mind that I hadn't 
considered existed before.  And that day when I realized there was 
a 3-year-old girl out there, there was a 6-year-old girl out there, 
there was an 8-year-old girl out there that were being posed to 
meet the demands of 6,000 pedophiles that were being 
photographed on a weekly basis that were being placed in 
unbelievable sexual positions in order to gratify these people 
paying $30 a month.
	That was a day or two or three where I just stopped sleeping.  
Does this lead to child porn?  This is child porn.  The only thing 
that makes it slightly less horrific is that they have a Band-aid of 
clothing on these children, but these children are being abused, and 
they are being exploited.  And so the reason why the predators are 
interested in these sites is because they have convinced themselves, 
contrary to law, that these sites are legal.  I think they now think 
differently because many of these sites shut down.  Playtoy and 
many other ones have shut down since the article was published.  
But what is going on there is terrible.
	MR. WHITFIELD.  The gentleman's time has expired.  Dr. 
Salter, did you want to make a comment?
	DR. SALTER.  No.
	MR. WHITFIELD.  Okay.  I thought that you were getting ready 
to say something so I wanted to give you that opportunity.
	DR. SALTER.  Thank you.
	MR. WHITFIELD.  Mrs. Blackburn, you are recognized for 10 
minutes.
	MRS. BLACKBURN.  Thank you, Mr. Chairman.  And thank you 
to our witnesses that have joined us today.  And, Mr. Chairman, I 
have a statement that I will submit for the record.  I want to come 
right in behind where Mr. Ferguson was questioning, and let us 
talk for a minute about these children.  And, Mr. Eichenwald, I 
thank you for continuing to work with us and to answer the call 
when we talk with you.  Let us talk about these children, because I 
cannot even imagine the psychological harm that is done to the 
children that are pulled into these gateway sites, if you will, or the 
child model sites.
	And I guess, Dr. Salter, I will direct the question to you or to 
any of you that have actually worked with the children that have 
been affected by this.  And we have heard from Justin Berry.  Have 
you been able to establish a method for working with them, talking 
with them, trying to pull out what is the best way to help the 
children in dealing with addressing this situation?  So, Dr. Salter, if 
you want to go first.
	DR. SALTER.  The child sexual abuse treatment field that 
specializes in treating children is far larger and better, and 
therefore has more research behind it than the sex offender field.  
	MRS. BLACKBURN.  But are you all working with them?  Do 
you work with any of those that are dealing with the child sexual 
abuse and dealing with the children because I think the 
psychological harm of the children and just the interaction--
	DR. SALTER.  I did for 20 years.  Currently I am not seeing the 
clients.
	MRS. BLACKBURN.  Okay.
	DR. SALTER.  But I worked with both and because it is hard to 
get offenders in treatment and victims seek treatment far more 
often, I saw over the course of those 20 years far more victims than 
offenders.  And that field is much larger and much better 
developed than the small number of people who are willing to 
work with sex offenders.  And there are good treatment protocols 
out there today for helping children.  Now the longer the child has 
been exposed to it and the more the child has been sexualized the 
more difficult it is.  One of the big problems in this field is children 
who have been socialized into sexual behavior from such an early 
age that they really do believe it is normal and are often used to 
recruit other children into being victims, and those children are 
much, much tougher to treat.
	MRS. BLACKBURN.  Dr. Salter, one more thing.   In listening to 
you and Dr. Hernandez talk about the recidivism rates, in reading 
the testimony that you all have submitted, what do you think really 
works as you are trying to work with sex offenders?  You got a 
high recidivism rate.  As you work with them, what protocol, what 
type therapy, what item is giving you the best results?
	DR. SALTER.  Cognitive behavioral treatment without a 
question.  The form that is most commonly used is called relapse 
prevention, the only type of treatment that has been shown to 
reduce recidivism.  Freudian or psycho-dynamic treatment, open-
ended groups, none of those has been shown to reduce recidivism 
at all.  The problem is there is not enough treatment.  The Federal 
Bureau of Prisons has a 112-bed unit and 12,000 offenders.  I 
would be willing to bet there are more offenders who would seek 
treatment than 112.  In the State systems, I have never seen a State 
system that had enough treatment.  They typically have long 
waiting lines for treatment.  We do have offenders seeking 
treatment who can't get it.
	MRS. BLACKBURN.  Okay.  Relapse prevention then is what 
you say works?
	DR. SALTER.  Yes.
	MRS. BLACKBURN.  Okay.  And we have one Federal facility 
that is a 112-bed unit that is dealing with relapse prevention and no 
State systems, am I understanding you correctly?
	DR. SALTER.  No.  The State systems have programs as well, 
but they in my experience never have enough treatment for all the 
offenders.
	MRS. BLACKBURN.  Got it.
	DR. SALTER.  We have a 100-bed unit in Wisconsin that 
doesn't begin to tap the waiting list.
	MRS. BLACKBURN.  All right.  Okay.  Excellent.  Well, thank 
you with that.  Dr. Hernandez, do you have anything to add?
	DR. HERNANDEZ.  Just agree with Dr. Salter that the choice of 
treatment for sexual offenders is cognitive behavioral therapies, 
and I may add that augmented by psych-pharmacological 
approaches, those therapies seem to work better with some 
offenders.
	MRS. BLACKBURN.  Okay.  Let me ask you this.  When you 
talk about the recidivism rate and working toward reductions, what 
impact does the child sex offender registry have?  Is it a helpful 
tool?  How does that fit in?
	DR. HERNANDEZ.  My understanding of the scientific research 
is that sex offender registries have little to no impact on recidivism.
	MRS. BLACKBURN.  Okay.  Mr. Eichenwald, in the chat rooms 
and those that you have talked to in your research, what do they 
have to say about the sex offender registry?  Do they ridicule it?  
Do they fear it?
	MR. EICHENWALD.  They hate them.  They deem them the 
equivalent of the scarlet P, I guess.  But being on the sex offender 
registry is not--there is not a lot of shame in this world.  There is 
not a lot of people saying, oh, I am so upset that this has happened.  
But what there is, and I think this goes to Dr. Jenkins' point about 
the vigilantes, there is an enormous fear among those who have not 
been publicly revealed before of having their predilections publicly 
revealed.  And so, again, I don't know of the effect of sex 
registries, but I do know that there is enormous fear of having to 
explain themselves in public.
	MRS. BLACKBURN.  I guess the brazenness of some of the 
pedophiles just amazes me as I have read different things that you 
all have submitted to us, just the brazenness of their nature and 
how they are emboldened in some ways by the chat rooms and the 
work on the Internet.  And I think it does concern me, and, Dr. 
Salter, your comment is not lost that credit cards and cutting off 
the use of credit cards for these sites is a very important step for us, 
and I think that is an area where we can do a little bit more work.  
With that, Mr. Chairman, I am going to stop my questions.  I know 
some others want to question before we have votes and I know that 
is coming up on us very quickly.  Thank you all very much.
	MR. WHITFIELD.  At this time, I will recognize Dr. Burgess for 
10 minutes.
	MR. BURGESS.  Thank you, Mr. Chairman.  Mr. Eichenwald, 
welcome back to the committee.  Can I just ask you, and this is 
more follow up from hearings we have done previously, obviously 
you were here the day that Justin Berry was before the committee, 
and a lot of frustration over not being able to hold the people 
accountable after he had provided data, names and IP addresses, 
credit card numbers, et cetera.  Can you bring us up to date on the 
several months that intervened now, have any of those individuals 
been brought to justice?  Can you kind of bring us up to date on 
what the FBI and the Department of Justice is doing to hold those 
people accountable?  What has happened in Justin Berry's life in 
the 2 or 3 or 4 months since he was here?
	MR. EICHENWALD.  Well, there have been a number of 
developments.  If you remember, this committee had subpoenaed 
Ken Gourlay, who had been identified by Justin as both one of the 
people who assisted him on his website and also one of the people 
who molested him.  Very shortly after this committee's hearing, 
the Michigan Attorney General's office reached out to Justin and 
interviewed him about Ken Gourlay.  There was a raid on his 
house.  If I remember correctly, it was about 6 days later.
	MR. BURGESS.  That was a State Attorney General?
	MR. EICHENWALD.  That was a State Attorney General.  And 
now, again Ken Gourlay is one of the names that the Justice 
Department had for a while.  But the State Attorney General raided 
his house 6 days later, took a lot of computers out, found child 
porn on the computer of one of the other people in the house who 
was then arrested.  That individual then began providing testimony 
against Ken Gourlay.  Ken Gourlay was arrested in May on, I 
believe it was 10 counts, many of them involving the molestation 
of Justin Berry.
	He was re-arrested in, I believe it was July because in the 
course of following down the evidence in his computer they 
located other children who he had contact with and found one of 
them, who has since testified that he also was molested by Ken 
Gourlay during 2005.  My big horror on hearing that was fearing 
that that molestation had taken place after the Justice Department 
had been made aware of Ken Gourlay's existence and his role in 
this.  It ends up though that that does not seem to have been the 
case that that molestation took place in early 2005, and Ken 
Gourlay was identified to the Justice Department in July or 
August.
	So right now he is in jail awaiting trial on two sets of counts, 
one involving Justin Berry, and one involving the other individual.  
There was an arrest of a gentleman by the name of Aaron Brown.  
He was the person who was arrested by the Justice Department.  
He was the person who ran niova.net, the credit card transacting 
company that was doing business with Justin's websites.  There 
was a sentence of one of the other business partners/molesters of 
Justin, and he received 150 years in prison.
	Justin himself had trouble.  By May--he had always had a great 
deal of difficulty, as members of this committee probably know, he 
had a great deal of difficulty dealing with what happened with him 
involving Ken Gourlay.  It was always a very traumatic thing for 
him to discuss.  After Mr. Gourlay was arrested and Justin was 
being interviewed over and over again, he started showing some 
real signs that emotionally he wasn't holding up.  In June, in what I 
think was a wonderful development, he voluntarily went to a 
hospital where he stayed for a couple of weeks to get some help 
because he needed some help.  He has since been released.  He was 
there for only 2 weeks.  He testified against Ken Gourlay at his 
trial.  And he is now, as I understand it, about to start a new job.  
And when I spoke with him last, he sounded healthy and happy 
and eager to get on with his life.
	In terms of other activities probably the biggest development 
came from this committee's referral of I believe it is some 700 
names to different States Attorney General.  I know that at least 
one State is conducting an aggressive investigation into those 
names.  I don't know how widespread it is.  Again, I haven't been 
chasing it down to find it out but I know that that information--that 
there are actual investigators who are actually conducting 
interviews.
	MR. BURGESS.  But at the State level, and I guess that is what is 
troubling to me.
	MR. EICHENWALD.  That is at the State level.
	MR. BURGESS.  It has been difficult to engage our own 
Department of Justice in the enforcement of what you would think 
would be a fairly straightforward investigation and hopefully 
prosecution.  Mr. Hernandez, in your testimony, and I appreciate 
you being so thorough with us, the line here about the rate of 
sexual offending contact recorded after treatment is 80 percent.  
That is a pretty startling figure.  Is your treatment program 
providing any benefit at all or was this before treatment?
	DR. HERNANDEZ.  These disclosures were made over the 
course of treatment about past behavior and for most of these 
offenders their contact sexual criminality preceded their use of the 
Internet.
	MR. BURGESS.  Preceded the use of the Internet?
	DR. HERNANDEZ.  Yes.
	MR. BURGESS.  So that 80 percent figure is before the Internet?
	DR. HERNANDEZ.  For a great majority of them, yes.
	MR. BURGESS.  Would you speculate as to what effect the 
Internet has had on this figure?  It probably made it go up, didn't 
it?
	DR. HERNANDEZ.  It has been the subject of discussion.  We 
really don't know the effect of the Internet and how it has impacted 
those who have pedophilic impulses as Dr. Salter noted earlier.  
The incidents of pedophilia is considerable.  The estimates suggest 
that 1 in 20 or 20 percent, and that is a significant proportion.  I 
should say 5 in 20, not 1 in 20.  That is a significant proportion.  
Now does the Internet in my opinion highlight this problem?  From 
my vantage point, it does.
	MR. BURGESS.  Let me just ask you a question.  These 
individuals that you were talking about in your study were 
individuals in prison, is that correct?
	DR. HERNANDEZ.  Yes, sir.
	MR. BURGESS.  Now do you know, what was the incidents of 
say sexually transmitted disease in this group of individuals that 
you dealt with, the incidents of Hepatitis C, Hepatitis B, HIV, do 
you know that?
	DR. HERNANDEZ.  I have no idea.
	MR. BURGESS.  Is that a concern for us that these individuals 
when they get out of prison who may have been exposed to these 
illnesses in prison may then act out on their impulses outside and 
further endanger this group of very vulnerable citizens?
	DR. HERNANDEZ.  Absolutely.
	MR. BURGESS.  Dr. Salter, Mr. Hernandez has already 
referenced the continuum of 20 percent with desire, 10 percent 
who have admitted.  Do you think the Internet is driving this 
continuum from the 10 percent figure to the 20 percent figure?  
Could it be as high as 1 in 5 as Mr. Hernandez pointed out?
	DR. SALTER.  These studies predated the spread of the Internet.
	MR. BURGESS.  Predated the Internet.
	DR. SALTER.  Well, let me think.  One was at least 10 years old.
	MR. BURGESS.  My time is running out so let me reframe the 
question.  From this committee's perspective, and I don't know 
that we really have that much as far as legislative initiatives that 
we are putting forward, there are a couple of things, but in an effort 
to control this spread through the Internet, is that a worthwhile 
thing for this committee to be pursuing in your opinion?
	DR. SALTER.  Oh, absolutely.  Yes, it is incredibly worthwhile.
	MR. BURGESS.  Mr. Eichenwald, let me just ask you a question.  
You spent time in the chat rooms and know the aliases and the 
buzz words that are used, and this committee and the child haters 
are talked about in the room as your answer to Mr. Ferguson's 
question pointed out.  Do they perhaps sow the seeds of their own 
control in these chat rooms?  Do they talk about things that would 
provide that degree of inhibition that quite frankly many of us on 
this side of the dais would like to see?  Is there anything you see 
talked about that they truly fear or have they just really grown to 
the point where they are beyond fear?
	MR. EICHENWALD.  Exposure.  They fear exposure.  They fear 
their identities being learned.  They fear--there are some of these 
websites that have rules.  Among the rules are you can never use a 
real name.  You can never provide any identifying detail.  You 
can't say what city you are in.  They are very, very particular about 
people knowing who they are and where they are, but they are also 
very good at hiding it.  And so, if there is anything that goes 
towards that it is some level of exposure.  In terms of fear of law 
enforcement, fear of anything else, no.  I mean going to prison 
seems to be as uncontroversial as going to the Caribbean.
	MR. BURGESS.  Part of the cost of doing business?
	MR. EICHENWALD.  Yeah.  There are a lot of them saying, well, 
when I was in prison, oh, when I was in prison, and it is just sort of 
casually thrown around.  At one point every one of these people 
had been in prison.
	MR. BURGESS.  Doesn't going to prison equate with exposure 
because the crime itself is--the trial is public?
	MR. EICHENWALD.  Apparently but it is not--if you think about 
it if somebody has been arrested in Portland for some local crime 
and they go to jail the world doesn't know what they have done, 
and you really have to work to find out about it.  And, ultimately 
even the ones who sort of hold themselves up as leaders of this 
rights movement won't give their names and hide behind aliases 
and anonymizers, and so at the end of the day that that is clearly 
the thing that they are most concerned about.  But so long as they 
have the ability to utilize the Internet, they can be as anonymous as 
they want to be.
	MR. BURGESS.  Mr. Chairman, I see my time has expired.  I 
note later on in the week we are dealing with pre-texting.  I don't 
know, maybe we should turn the pre-texters loose on the predators.  
I don't know if that would do any good at all.  Thank you, Mr. 
Chairman.
	MR. WHITFIELD.  That is a good idea, by the way.  Thank you.  
I certainly want to thank this panel for your time and your 
contributions to these hearings.  I know that you took time away 
from other activities, and we appreciate it and hope that we might 
stay in touch with you as we move forward with some suggestions 
on legislation.  And so with that, we will release the first panel and 
thank you again for participating.  I would also like to call up panel 
two at this time.  And on panel two we have two witnesses, Mr. 
Thomas Krwawecz, who is the Chief Executive Officer of Blue 
Gravity Communications out of New Jersey, and then Ms. 
Christine Jones, who is the General Counsel for GoDaddy.com out 
of Scottsdale, Arizona.
	Mr. Krwawecz, we appreciate you and Ms. Jones being with us 
today, and as you know this is an Oversight and Investigations 
Subcommittee hearing, and we do take our testimony under oath.  
Do either of you have any objection to testifying under oath?  If 
you would stand and raise your hand, I would swear you in.
	[Witnesses sworn]
	MR. WHITFIELD.  You are both under oath now, and, Mr. 
Krwawecz, we will recognize you for your 5-minute opening 
statement.

TESTIMONY OF THOMAS KRWAWECZ, CHIEF EXECUTIVE OFFICER, BLUE GRAVITY 
COMMUNICATIONS, INC.; AND CHRISTINE JONES, GENERAL COUNSEL, GODADDY.COM, INC.

	MR. KRAWAWECZ.  Thank you.  Chairman Whitfield, Ranking 
Member Stupak, members of the subcommittee, I would like to 
thank you for providing me with the opportunity to testify today.  
As an owner of a small business that serves as a host for websites, 
I am pleased to see that the subcommittee is focusing its attention 
on the problem of child pornography on the Internet and hope that 
my testimony can be of assistance to the subcommittee.  My name 
is Thomas Krwawecz, III, and I am the founder and owner of Blue 
Gravity Communication, Incorporated, a Web hosting company.  I 
founded Blue Gravity in July of 1997 as a college student.  At that 
time we had only one server and myself as the only employee.  In 
just 9 years, however, we have grown substantially, now having 
nearly 200 servers and four full-time employees.  Blue Gravity 
currently services almost 7,000 customer accounts and hosts 
approximately 50,000 domains.
	It is important for the subcommittee to understand that as a 
Web hosting company we provide customers with a platform from 
which to display their websites to Internet users as well as 
technical and administrative support relating to that service.  Our 
terms of service strictly prohibit any of our customers from posting 
illegal content, including child pornography, on websites hosted on 
our servers, but we otherwise have no influence or control over the 
websites content.  In addition, we are not involved in the domain 
registration process.  Customers come to us with existing domain 
names which they have already registered or we refer them to a 
third party that is in the business of registering domain names.
	When a customer applies for an account, we confirm that their 
mailing address matches the location of their computer's IP 
address, and that the name of the credit card provided for our 
records matches the contact information supplied by the customer.  
If any such information is inconsistent, the application for a Blue 
Gravity account is denied.  When we learn that a website we host 
contains illegal content, we take immediate steps to rectify the 
situation.  All complaints or other notifications received from 
citizens, watchdog groups, or law enforcement are investigated.  
After receiving notification of potential illegal content, we 
immediately examine the website named in the complaint.  If there 
is blatant illegal content, we immediately disable the account and 
notify the customer via email that service has been suspended due 
to illegal content.
	When our examination does not conclusively reveal illegal 
content because, for example, we cannot tell whether or not the 
individuals are under the age of 18, we contact the customer and 
request proof of age for the models.  If satisfactory proof cannot be 
provided, the website is shut down immediately, and the customer 
receives the suspension email that I just described.  We are always 
looking for ways to improve our ability to detect and eliminate 
child pornography from websites which we host on our servers.  
Thanks to this subcommittee, we have learned of some additional 
improvements that we can, and will, make at Blue Gravity.
	For example, we are placing a panic button on our Blue 
Gravity Web page to provide people with a mechanism to report 
child pornography.  Individuals who utilize this function will send 
a message to a unique email address for the purpose of reporting 
child pornography.  All complaints will be immediately 
investigated and forwarded to the National Center for Missing and 
Exploited Children.  In an attempt to further aid law enforcement, 
Blue Gravity has always stored the content of illegal sites on our 
system for 1-2 weeks after being disabled in case it should be 
requested for prosecutorial purposes.
	We believed that this provided law enforcement with sufficient 
time to make a preservation request or to send us a subpoena.  In 
preparation for this hearing, we learned that many of the larger 
Internet companies, including the ISPs which testified previously, 
maintain such content information for 20-30 days after being 
disabled.  Accordingly, Blue Gravity will now hold such content 
for 30 days.  If a request for preservation is received before the 
expiration of that 30 days, we will preserve the content for as long 
as necessary.
	Blue Gravity also supports the steps being taken by members 
of the subcommittee to legislatively regulate the maintenance of 
account information for websites displaying child pornography.  
Blue Gravity already maintains such records, including IP address, 
contact, and credit card information indefinitely.  This information 
is available to law enforcement groups at any time and has been 
provided on numerous occasions.  We are actively considering a 
number of other improvements which we can make in order to help 
stem the tide of child pornography, and we welcome any further 
suggestions by the subcommittee or its staff.  Again, thank you for 
the opportunity to testify on this important topic.
	[The prepared statement of Thomas Krwawecz follows:]

PREPARED STATEMENT OF THOMAS KRAWAWECZ, CHIEF 
EXECUTIVE OFFICER, BLUE GRAVITY COMMUNICATIONS, INC.

        Chairman Whitfield, Ranking Member Stupak, Members of the 
Subcommittee, I would like to thank you for providing me with the 
opportunity to testify today.  As an owner of a small business that 
serves as a host for websites, I am pleased to see that the 
Subcommittee is focusing its attention on the problem of child 
pornography on the internet and hope that my testimony can be of 
assistance to the Subcommittee.
	My name is Thomas Krwawecz, III, and I am the founder and 
owner of Blue Gravity Communication, Incorporated, a web 
hosting company.  I founded Blue Gravity in July of 1997 as a 
college student.  At that time we had only one server and no 
employees.  In just nine years, however, we have grown 
substantially, now having nearly 200 servers and 4 full-time 
employees.  Blue Gravity currently services almost 7,000 customer 
accounts and hosts approximately 50,000 domains.
	It is important for the Subcommittee to understand that as a 
web hosting company we provide customers with a platform from 
which to display their websites to internet users as well as 
technical and administrative support relating to that service.  Our 
terms of service strictly prohibit any of our customers from posting 
illegal content, including child pornography, on websites hosted on 
our servers, but we otherwise have no influence or control over the 
websites content.  In addition, we are not involved in the domain 
name registration process.  Customers come to us with existing 
domain names which they have already registered or we refer them 
to a third party that is in the business of registering domain names.
	When a customer applies for an account, we confirm that their 
mailing address matches the location of their computer's IP 
address, and that the name on the credit card provided for our 
records matches the contact information supplied by the customer.  
If any such information is inconsistent, the application for a Blue 
Gravity account is denied.
	When we learn that a website we host contains illegal content, 
we take immediate steps to rectify the situation. All complaints or 
other notifications received from citizens, watchdog groups or law 
enforcement are investigated.  After receiving notification of 
potential illegal content, we immediately examine the website 
named in the complaint.  If there is blatant illegal content, we 
immediately disable the account and notify the customer via email 
that service has been suspended due to "illegal content."  When our 
examination does not conclusively reveal illegal content because, 
for example, we cannot tell whether or not the individuals are 
under the age of 18, we contact the customer and request proof of 
age for the models.  If satisfactory proof cannot be provided, the 
website is shut down immediately, and the customer receives the 
suspension email that I just described.
	We are always looking for ways to improve our ability to 
detect and eliminate child pornography from websites which we 
host on our servers.  Thanks to this Subcommittee, we have 
learned of some additional improvements that we can, and will, 
make at Blue Gravity.  For example, we are placing a "panic 
button" on our Blue Gravity web page to provide people with a 
mechanism to report child pornography.  Individuals who utilize 
this function will send a message to a unique email address for the 
reporting of child pornography.  All complaints will be 
immediately investigated and forwarded to the National Center for 
Missing and Exploited Children.
	In an attempt to further aid law enforcement, Blue Gravity has 
always stored the content of illegal sites on our system for 1-2 
weeks after being disabled in case it should be requested for 
prosecutorial purposes.  We believed that this provided law 
enforcement with sufficient time to make a preservation request or 
to send us a subpoena.  In preparation for this hearing, we learned 
that many of the larger internet companies, including the ISPs 
which testified previously, maintain such content information for 
20-30 days after being disabled.  Accordingly, Blue Gravity will 
now hold such content for 30 days.  If a request for preservation is 
received before the expiration of that 30 days, we will preserve the 
content for as long as necessary.
	Blue Gravity also supports the steps being taken by members 
of the Subcommittee to legislatively regulate the maintenance of 
account information for websites displaying child pornography.  
Blue Gravity already maintains all such records, including IP 
address, contact and credit card information, indefinitely.  This 
information is available to law enforcement groups at any time, 
and has been provided on numerous occasions.
	We are actively considering a number of other improvements 
which we can make in order to help stem the tide of child 
pornography, and we welcome any further suggestions by this 
Subcommittee or its staff.
	Again, thank you for the opportunity to testify on this 
important topic.

	MR. WHITFIELD.  Thank you very much.  Ms. Jones, you are 
recognized for your 5-minute opening statement.
	MS. JONES.  Thank you, Mr. Chairman.  I am Christine Jones, 
General Counsel and Corporate Secretary for the GoDaddy Group.  
GoDaddy's principal business is domain name registration.  When 
I joined GoDaddy back in early 2002 it was a very small registrar 
with well under 100 employees.  Today, we have over 1,200 
employees and more than 15 million domain names under 
management.  That makes us the number one registrar in the entire 
world.  We register a domain name about once every 3 seconds or 
less.  The domain name registrar serves as the point of entry to the 
Internet so if you wanted to register the domain name 
ChairmanWhitfield.com, which by the way I did in anticipation of 
this hearing, and I will be happy to give that over to your staff at 
the conclusion.
	MR. WHITFIELD.  Thank you so much.
	MS. JONES.  You are welcome.  So you can go to GoDaddy and 
register that domain name.  And then once ChairmanWhitfield.com 
is registered, you would need to actually build a website and find a 
place to store, or what we call host, the information that you 
created.  Again, you could to GoDaddy.com for storage or hosting 
services or you could go to my colleague's company, Blue Gravity, 
for that same service.  Because we see it so frequently in our 
business, I want to focus on how GoDaddy deals with online child 
pornography.  We devote considerable time and resources to 
working with law enforcement on preserving the integrity and 
safety of the Internet.  We quickly close down websites and 
domain names engaged in illegal activities.  I personally, and this 
company in general, have made it a high priority to use our 
position as the world's largest registrar to make the Internet a 
better and safer place.
	With over 15 million domain names under management most 
of our data does and must come from third party complaints or 
notices.  We have a network abuse department that works 24 hours 
a day, 7 days a week, to receive those types of complaints.  They 
come from third parties via email, via telephone, from employees 
who notice child pornography content during the ordinary course 
of their work day, and also from notifications from Cyber Tipline 
and other watchdog organizations.  Once we are made aware there 
is a potential child pornography site, we immediately investigate to 
determine whether or not there is in fact child pornography 
content, and, if so, whether that customer has other domain names 
resolving to that particular site, and then whether there are other 
hosting accounts in that customer's account which contain 
pornographic content as well.
	Once that investigation is complete, we report the offending 
domain names, the websites, and the registrant information to law 
enforcement, and then we give law enforcement a short amount of 
time to request that we leave the website intact, and this is an issue 
that came up last week at a similar hearing on this topic, and we do 
that to assist in investigations.  We also report to the National 
Center for Missing and Exploited Children, of course.  We then 
permanently suspend our services to that customer.  On the 
numbers, we investigate thousands of domain names and websites 
each year for child pornography.  The number of unique customers 
that we investigated in the past 12 months is approximately 1,200.  
That is unique customers.  Many of those customers have multiple, 
multiple domain names, and this number does not include the child 
modeling sites that I am going to address in a moment.
	Approximately 90 percent of the sites that we suspend are 
domain name registrations only.  This means that in about 90 
percent of the cases another company provides the hosting service.  
We provide the domain name registration only.  About 75 percent 
of the child porn websites we have investigated in the past year 
were registered to an individual or company in Russia, the 
Ukraine, and Romania, so that theme seems to continue in these 
hearings.  Much like child pornography websites, we routinely 
investigate and suspend sites involving child modeling.  As these 
sites typically do not rise to the level of technical child 
pornography, we classify these sites as morally objectionable 
which is a term that I put into our universal terms of service for 
situations such as these.
	We typically remove them even if we can't find child 
pornography because our experience has been that the operators of 
child modeling sites tend to be associated even if attenuated with 
child pornography in some way.  We also remove the non-
traditional forms of child pornography like nudist sites and cartoon 
child porn.  We follow basically the same procedures for child 
modeling sites as I just described for the child porn investigations, 
and of course we report those to the National Center as well.
	One child modeling investigation we conducted recently 
uncovered a registrant of child pornography.  We discovered this 
customer in particular had over 200 active child modeling 
websites.  After following our standard operating procedures, the 
information was submitted to authorities.  About 2 weeks later that 
same customer had been arrested and indicted on multiple counts 
of child pornography.  I just point that out to demonstrate that it is 
very important for all Internet service providers, domain name 
registrars, and hosting companies to take these child modeling sites 
seriously.
	The number of unique customers investigated in the past 12 
months on child modeling sites was approximately 780 so they are 
significant, and of course these people have multiple domain 
names as well.  About 70 percent of those were domain name 
registrations only and about 77 percent of them come also from 
Russia, Ukraine, and Romania.  So I want to thank you, Chairman 
Whitfield, for the invitation to testify here today.  GoDaddy is 
committed to working with law enforcement and others in the 
industry to remove child pornography content from the Internet, 
and we would challenge our counterparts on the Internet to make 
that same commitment.  Thank you.
	[The prepared statement of Christine Jones follows:]



PREPARED STATEMENT OF CHRISTINE JONES, GENERAL COUNSEL, 
GODADDY.COM, INC.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

        MR. WHITFIELD.  Thank you very much.  You heard all the 
bells going off, and this is because we have about three votes on 
the House floor, so we are going to recess this hearing and we will 
be back here I would say about 10 minutes till 1:00.  It is 12:15 
now, so about 10 minutes till 1:00.  And there is a dining room 
downstairs and whatever, so anyway we will be back with some 
questions for you all.  I am very sorry for this inconvenience.  And 
so we will recess until 10 till 1:00.
	[Recess]
	MR. WHITFIELD.   We have another vote on the floor but we 
have some time here so we may be able to work this out.  Does 
your company have a policy of not allowing certain names to be 
used or do you ever deny the use of a particular name?
	MS. JONES.  We don't prohibit the registration before the 
registration takes place because many domain names are 
registered, and I mean thousands upon thousands are registered and 
never used.
	MR. WHITFIELD.  Right.
	MS. JONES.  And some are actually registered pre-emptively so 
like, for example, we may have a whole series of Lolita names 
registered, which are just placed in an account to pre-empt 
somebody else from using them.  So the answer is, no, we don't 
prohibit for the registration.
	MR. WHITFIELD.  And so as long as they continue to pay their 
annual fee then they can keep that name forever?
	MS. JONES.  Yes, sir, as long as they are not using it for some 
inappropriate person.
	MR. WHITFIELD.  Okay.  Okay.  Now I know in this case out of 
Russia the Playtoy Enterprises, they used an anonymizing service, 
and they allowed someone else to register the name for them, and I 
understand that even you all have a policy where you will register 
a name for someone and they are not actually listed as the owner of 
the name.  Is that correct?
	MS. JONES.  That is correct.
	MR. WHITFIELD.  Now why would a person running a lawful 
Internet business choose this type of domain registry?
	MS. JONES.  Most of the people that use our service, and by the 
way it is not an anonymous service, it is just privacy protection, 
most of the people that do it are sole proprietors or at-home 
businesses that don't want to list their personal information in the 
public database.  And we find to our great satisfaction that most of 
the people that use that service are legitimate users because people 
who are criminal or crooks, if you will, don't pay extra money to 
protect bad information.  They just give us that information that 
looks valid.
	MR. WHITFIELD.  Right.  Mr. Krwawecz, you host these 
websites.  I get the impression that you all are really not proactive 
on monitoring any of these sites but that if someone calls and 
brings it to your attention then you will take action, but are you 
doing anything from a proactive standpoint yourself out there 
looking to see if a website is hosting, for example, child 
pornography?
	MR. KRAWAWECZ.  Due to the volume of websites that we 
host, the number of pages that can be set up under any particular 
website, and the fact that they can change on a daily basis, it is 
very difficult for us to monitor.  Since over the last few weeks we 
have had some discussions about some additional things that we 
may be able to implement to help us monitor the types of websites 
that are on our services; but we do rely on feedback from users or 
some of the other watchdog groups, the other organizations out 
there that handle the complaints and then report to us.
	MR. WHITFIELD.  Is there any kind of technology that is 
available to monitor that would be available for either GoDaddy or 
Blue Gravity?  Is there technology out there that you could acquire 
to do this in a more proactive manner?
	MR. KRAWAWECZ.  From a Web hosting standpoint and even 
with what GoDaddy does I am not aware of anything that is 
currently available.  You know, without physically looking at an 
image there is no software technology that I am aware of that 
would be able to determine whether or not to differentiate between, 
let us say, a picture of an apple or a picture of an orange or a 
picture of a model or an underage model.
	MR. WHITFIELD.  Well, because the financial services group 
that testified the other day, the MasterCards and Visas and 
whatever, they referred to something as a Web crawler with a log 
rhythm type of--it looked for certain words and from that they 
would go check and there was a likelihood that it was a site with 
pornography or something.  Have you heard of a Web crawler or 
are you familiar with that?
	MR. KRAWAWECZ.  I am familiar with Web crawlers.  I don't 
know that that would necessarily help us determine--we looked 
and did research during the course of this investigation on one 
server that we have websites hosted on, and a search for the term 
Lolita and model and returned about 150 pages worth of data with 
maybe 30 to 50 individual Web pages on each of those 120 to 150 
pages.  You would really physically have to go through that and 
just because of the size of our company it is not practical for us to 
go through and be able to examine all that data.  If there was some 
technology, Web crawler, or if there is something out there that I 
am not aware of, we are certainly open to suggestions or whatever 
technology Visa, MasterCard, or any of the other companies that 
are out there might be using.
	MR. WHITFIELD.  So, Ms. Jones, you feel like you all are doing 
everything that you can do as far as preventing these sites from 
being out there or do you think you can do more?
	MS. JONES.  In terms of prevention?
	MR. WHITFIELD.  Yeah.
	MS. JONES.  Well, one of the things that we do and it is pretty 
easy is to look and examine files by file size.  We find often that 
Web hosting customers, for example, who have very large volumes 
of data tend to have video files because they take up a lot of space.  
On that, for example, we can go view the content, and of course as 
the gentleman suggests you have to look at the content, but we can 
do that and we do do that from time to time, not just on child 
pornography but on all kinds of violations.  If I had a staff of a 
thousand people that could go review all of our hosting boxes 
every day then, absolutely, we could prevent more of this but at 
$1.99 a month for a hosting account the economy is not really 
there for us to do that.
	MR. WHITFIELD.  Right.  Mr. Stupak.
	MR. STUPAK.  Thank you, Mr. Chairman.  Mr. Krwawecz, am I 
saying that right?
	MR. KRAWAWECZ.  Krwawecz.
	MR. STUPAK.  Krwawecz.  The way I understand it, Blue 
Gravity began as an adult pornography site and you don't create 
any of your own content, is that correct?
	MR. KRAWAWECZ.  That is correct.
	MR. STUPAK.  Okay.  It is also my understanding that 70 
percent of your websites that you host are adult content, is that 
correct?
	MR. KRAWAWECZ.  That is correct, approximately.
	MR. STUPAK.  Were you present when the last panel testified, 
the doctors and all them, the guy from corrections?
	MR. KRAWAWECZ.  Yes.
	MR. STUPAK.  Okay.  In there, they were talking about 
illegality.  Would your websites have like violent rapes on them of 
mature women, things like that?
	MR. KRAWAWECZ.  No.
	MR. STUPAK.  Where do you decide what would be proper and 
improper website, what guidelines do you have?
	MR. KRAWAWECZ.  You know, content, we use the U.S. law to 
dictate what content is legal and is not legal.  We made sure--
	MR. STUPAK.  Well, is there a prohibition to have violent rapes 
amongst adults on websites?
	MR. KRAWAWECZ.  We never had any of that type of contact.
	MR. STUPAK.  The point I am trying to get at, in child 
pornography they said, well, that is sort of throwing gas on the fire.  
Remember that conversation we were talking about?  So why 
wouldn't yours be any different?  Why would you have adult 
websites that may or may not depict that?
	MR. KRAWAWECZ.  I am not sure I understand the question 
exactly.  The websites that we had were similar to subscribing to 
Playboy, for example, that type of material.  We never--there--
	MR. STUPAK.  Nothing more graphic depictions than that?
	MR. KRAWAWECZ.  No, there are very nitched categories of 
content that is I guess more violent more along the terms of what 
you are talking about, but that is nothing that we ever got into or 
put up on any websites that we had.
	MR. STUPAK.  Okay.  The point I am trying to make for people 
if you show young children and that may provoke improper sexual 
contact why wouldn't your websites do the same thing?
	MR. KRAWAWECZ.  I don't believe that someone is subscribing 
to an issue of Playboy has more or less of a tendency to be 
involved in any kind of violent or aggressive behavior.
	MR. STUPAK.  You said you store now for 30 days?
	MR. KRAWAWECZ.  No.  Currently we keep the content for 
about 7 to 14 days unless we have an order to preserve the content 
for longer.  If we get subpoenas for websites sometimes the terms 
on there dictate that we retain that material for 30, 60, 90 days, 
depending on the length of the investigation.
	MR. STUPAK.  There have been some proposals to maintain it 
for a year automatically with or without a warrant.  Would you be 
in favor of that?
	MR. KRAWAWECZ.  To maintain the actual website content?
	MR. STUPAK.  Correct.  Website content.
	MR. KRAWAWECZ.  A year might be a little long.  It really 
depends on every website varies in size.  What we did on this most 
recent issue was put a copy of that website on DVD and archive it, 
which is also a possibility.
	MR. STUPAK.  So you could do that then?
	MR. KRAWAWECZ.  Yeah.  It would be something that we 
would definitely be open to if there were some guidelines for 
maintaining that data for a specific period of time.  I don't think it 
is a bad idea at all.
	MR. STUPAK.  Ms. Jones, any reason why if we do legislation 
to compel data retention, is there any reason why Web hosting sites 
should be treated differently than ISPs?
	MS. JONES.  No, I don't think so.  To your earlier point, I 
listened with interest to the testimony last week about data 
retention.  I think it would be very helpful for hosting providers 
and Internet service providers both to have some kind of a 
requirement to maintain data, particularly customer data, not the 
content so much because we automatically produce the content 
when we find it.  But to retain this customer data that is helpful to 
them because then they don't have to jump through this additional 
hoop of getting me a document preservation letter or an NSL or 
some other form of subpoena or document.  I just automatically 
know I am required to maintain that for X number of days or 
months or years or whatever it is.  So I think that would be helpful, 
and I think it would be productive to helping law enforcement who 
needs all the help they can get on this.
	MR. STUPAK.  Well, I guess I am going to have to cut off my 
questions.  We got 20 seconds left.
	MRS. BLACKBURN.  [Presiding]  All right.  Ms. Jones, thank 
you, and thank you all for hanging in here with us as we go to 
votes.  We had an unexpected vote called, and I know that it is a 
little bit disconcerting.  Ms. Jones, I really wanted to come to you 
primarily, and thank you for your testimony about GoDaddy and 
the registrars and the websites and the domain registration.  And I 
want to ask you in the earlier questioning with the first panel, we 
talked a little bit about credit cards.
	MS. JONES.  Yes, ma'am.
	MRS. BLACKBURN.  And the use of credit cards.  And Dr. 
Salter's testimony on one of the ways to really aggressively go 
after this would be cutting off the use of credit cards.  And I was 
noticing in yesterday's Wall Street Journal there is also, and you 
may have seen this, about fines that are being put in place, 
additional fines for companies that are not adhering to the fraud 
protection elements that are there.  I would like to hear from you 
what your advice to us would be on addressing the credit card 
situation for access to these child pornography sites.
	MS. JONES.  Well, first of all, I was very enthusiastic when I 
read and heard some of the testimony from the financial 
institutions panel that you had a couple of weeks ago, or last week, 
because they are seeing fewer incidents of applications for 
merchant accounts for child pornographers than I thought that they 
would be, but I think the best advice is they have to continue a 
stringent due diligence process in both issuing merchant accounts 
and relationships with acquirers, but also the alternative forms of 
payment like, for example, putting money into an online account 
and just debiting it as you go along or PayPal or gold or Western 
Union or those sorts of things.
	They seem to be much more effective in eliminating the money 
trail because, for example, at GoDaddy we have a 24-hour, 7-day a 
week fraud department that checks credit card transactions.  Any 
of the transactions that are coming out of the known areas of 
offensive behavior, we review.  So if we know you are a guy that 
buys this kind of stuff, we eliminate your transaction, but that is 
with credit cards because those are easy for us to track.  If it is 
cash, it is a much more difficult situation so I guess the point I am 
trying to make is the focus, I think, needs to be on those alternative 
forms and determining how we can get those people to cooperate 
and have a relationship with ISPs, domain registrars, hosting 
providers, and all the people that enable the content to be put on 
the Internet in the first place.
	And I don't see why they wouldn't support it.  I mean this 
subject matters seems to be non-controversial.  Nobody thinks it is 
a bad idea to stop these guys from getting on the Internet.
	MRS. BLACKBURN.  Okay.  On the website names and on 
registering a domain name, and you may have answered some of 
the questions about complaints that you get on domain names 
while I was gone to vote, but with companies like yours when they 
are registering domain names that would lend you to believe 
something is a pornographic site, what kind of action can you take 
on the front end?
	MS. JONES.  Well, we can certainly monitor for particular 
words or particular combinations of words.
	MRS. BLACKBURN.  Do you have a unit that does that?
	MS. JONES.  With a registration once every 3 seconds or less it 
is very difficult for us to do that particularly on any kind of 
ongoing basis with human intervention, but we can and do monitor 
certain words.  The trouble comes in somebody registering 
CongresswomanBlackburn.com and leaving that domain dormant 
for some period of time, and then after 60 or 90 or 120 days 
attaching a website to it.  That is where the real bad behavior 
comes because the domain name may have offensive words in it, 
but if there is no content associated with that domain name, if it is 
just sitting in a database somewhere there is nothing improper 
about it.  It isn't resolved to a website.  It is not generating any 
revenue for the person.  It is just a random domain name sitting 
there.  That is where the real problem comes in and that is where it 
is really important to us to have these reports from third parties.  It 
is very helpful to us to get those reports.
	MRS. BLACKBURN.  So it is not always the gateway or the site 
itself, it is the portals that you can enter from that site?
	MS. JONES.  Yes, ma'am.
	MRS. BLACKBURN.  Mr. Krwawecz, am I saying it properly?
	MR. KRAWAWECZ.  Yes.
	MRS. BLACKBURN.  For Blue Gravity, any thought on either the 
credit cards or the domain registry?
	MR. KRAWAWECZ.  I agree with Ms. Jones as far as the credit 
card processing.  I think the companies like Visa and MasterCard 
have the resources to be able to monitor the merchants that are 
processing transactions, the websites that are associated with it, 
where the money is going and being able to shut down or 
discontinue processing transactions for sites that are promoting 
child pornography.  As far as the domain registration, one of the 
things that I had discussed earlier in the week was there is a fine 
line between registering a domain related to supporting rape 
victims and then a domain that is promoting rape and being able to 
distinguish which website or domain name is being used for 
legitimate purposes versus someone who is trying to promote child 
pornography or rape or something that is criminal of offensive.
	MRS. BLACKBURN.  Okay.  Ms. Jones, in the testimony that you 
have given, you talked about the investigation on the child 
modeling sites.  Did you elaborate on that during questioning?
	MS. JONES.  I did not.
	MRS. BLACKBURN.  Would you please do that for the record 
and then that is going to be my last question.  Just give a little bit 
more of the background of the investigation.
	MS. JONES.  Okay.  Typically, we get notices from their parties 
or employees who suspect child modeling sites are on the Internet.  
We conduct an investigation similar to what we do for child 
pornography.  Our abuse department would go view the site, would 
determine that there were inappropriate images.  Depending on 
whether or not there are links to or relationships with actual child 
pornography, we would either report actually to law enforcement 
or just to the National Center, the domain names, the websites, and 
the registrant information for the child modeling sites, but under 
any circumstances when we find these, we do take them down 
because they are clearly exploiting children, and I think the 
gentleman from the New York Times demonstrated some of those 
shocking behaviors that they are obviously forcing these children 
to engage in.  So the investigation is maybe a little bit simpler than 
it would be with child pornography because the analysis doesn't 
have to be as careful because the images are typically of children 
with clothing on.
	But we do take them very seriously, and over the last probably 
4 to 6 months we have seen a huge rise in the number of these 
sites, so we are very concerned about those.
	MRS. BLACKBURN.  And your investigation led to the 
awareness of over 200 sites, am I correct?
	MS. JONES.  In the last 12 months we have investigated 780 
unique customers.  That equates to thousands of domain names.  
The one example I gave was one customer who had over 200 
domain names.  One guy had 200 websites so that is 200 different 
children that he had active modeling sites on.  And they are all the 
same format, the same content, the same type of--generally the 
same type of behavior but it is every kind of child you could 
possibly want to look at.
	MRS. BLACKBURN.  And then your company, do you follow 
this through with law enforcement to be sure those sites come 
down and then do you continue if a person is known to set up these 
sites to prohibit from registering new domain names for them?
	MS. JONES.  Yes.  What we do is we report to law enforcement 
and to the National Center, and we eliminate all of the content and 
domain names in that customer's account.  We can also block that 
credit card from ever using our system again.  They could always 
come back as a different name or a different credit card, but, yes, 
we take all of the steps and to the point of sometimes even 
blocking the IP address from which those transactions originated 
from accessing our system.
	MRS. BLACKBURN.  Thank you so much.  I thank both of you 
for your patience and for your testimony, and for working with us 
on the hearing.  As you are aware, this is part of a series of 
hearings that we are doing as we review this entire process and 
work on the online child pornography issue.  And at this time, I 
will thank you all for your testimony and adjourn the hearing.
	[Whereupon, at 1:35 p.m., the subcommittee was adjourned.]
	

</pre></body></html>
